<html>
<title> - THE NOMINATIONS OF BRENDA MALLORY TO BE A MEMBER AND CHAIR OF THE COUNCIL ON ENVIRONMENTAL QUALITY AND JANET McCABE TO BE DEPUTY ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 117-2]
[From the U.S. Government Publishing Office]





                                                          S. Hrg. 117-2
 
   THE NOMINATIONS OF BRENDA MALLORY TO BE A MEMBER AND CHAIR OF THE 
    COUNCIL ON ENVIRONMENTAL QUALITY AND JANET McCABE TO BE DEPUTY 
          ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  



                             ______                       


              U.S. GOVERNMENT PUBLISHING OFFICE 
 43-843 PDF            WASHINGTON : 2021 
 



        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 3, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelly More, U.S. Senator from the State of West 
  Virginia.......................................................     3
Carson, Hon. Andre, U.S. Representative from the State of 
  Indiana, Seventh Congressional District........................     6
Blumenthal, Hon. Richard, U.S. Senator from the State of 
  Connecticut....................................................     7

                               WITNESSES

Mallory, Brenda, Nominee to be a Member and Chair of the Council 
  on Environmental Quality.......................................     8
    Prepared statement...........................................    10
    Responses to additional questions from:
        Senator Capito...........................................    12
        Senator Inhofe...........................................    36
        Senator Cramer...........................................    36
        Senator Wicker...........................................    38
        Senator Sullivan.........................................    39
Mccabe, Janet, Nominee to be Deputy Administrator of the 
  Environmental Protection Agency................................    41
    Prepared statement...........................................    43
    Responses to additional questions from:
        Senator Carper...........................................    46
        Senator Capito...........................................    47
        Senator Inhofe...........................................    71
        Senator Cramer...........................................    73
        Senator Sullivan.........................................    76
        Senator Earnst...........................................    77


   THE NOMINATIONS OF BRENDA MALLORY TO BE A MEMBER AND CHAIR OF THE 
    COUNCIL ON ENVIRONMENTAL QUALITY AND JANET McCABE TO BE DEPUTY 
          ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                        WEDNESDAY, MARCH 3, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee, met, pursuant to notice, at 10 a.m. in room 
562, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(chairman of the committee) presiding.
    Present: Senators Carper, Capito, Cardin, Whitehouse, 
Markey, Kelly, Padilla, Inhofe, Cramer, Lummis, Wicker, 
Sullivan, Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everyone. I am happy to call 
this hearing to order.
    We are gathered here today to consider the nominations of 
Brenda Mallory to serve as Chair of the White House Council on 
Environmental Quality and Janet McCabe to serve as Deputy 
Administrator of the Environmental Protection Agency.
    We are also pleased to welcome my seatmate in the U.S. 
Senate, Richard Blumenthal, husband of Cynthia, who sits to my 
left when we gather on the Senate floor, and also welcome 
Representative Andre Carson, wonderful of you to come. I 
understand you both are going to be introducing our nominees 
today. We are happy you could join us.
    We all know that this is a critical time in our Country's 
history. The American people need compassionate, steady, and 
enlightened leadership. Fortunately, the two nominees before us 
today have the expertise, the commitment, and the integrity 
that we need to help lead our Nation's environmental efforts 
and meet this moment in time.
    Both nominations before us today are for particularly 
important roles, roles that can improve the quality of life for 
all Americans.
    One of my mentors, the former Governor of Delaware, a 
Republican named Russell Peterson, actually served as the White 
House Council on Environmental Quality during Richard Nixon and 
Gerald Ford's administrations. Governor Peterson, a very wise 
man, use to refer to his role at CEQ as an orchestra conductor. 
He said, you don't play the instruments when you are the chair 
of CEQ, but you do try to work to enhance and ensure that 
everyone is playing in harmony. Think about that. You don't 
play the instruments as a CEQ chair, but what you do is try to 
ensure that everyone is playing in harmony.
    The CEQ chair coordinates action across the entire 
government to ensure the Federal agencies are working in 
harmony, that every Federal decision advances the objectives of 
economic growth, better public health, and stronger 
environmental quality.
    Over the last 4 years, too often, CEQ took dangerous policy 
actions undermining that very missions. One example: the 
National Environmental Policy Act, or NEPA. As we know, NEPA 
calls on our Federal Government to consider the impacts on the 
environment and public health before taking major actions. This 
can inform the public about how transportation projects can 
impact air pollution and how Federal development decisions can 
affect important historic sites.
    This law embodies our democratic ideals by offering the 
American people the opportunity to understand a proposed 
project and to voice their views to decisionmakers. The same 
principles of democracy and citizen participation enshrined in 
our Constitution, as it turns out, are also enshrined in NEPA.
    Sadly, the Trump Administration CEQ walked away from the 
tenets of this 50 year-old law, so one of the many tasks ahead 
of the next CEQ will be to get us back on track, to harmonize 
our efforts to address the climate change, safeguard public 
health, and ensure that We are treating others the way we would 
want to be treated.
    There are few persons as well-qualified to tackle this 
challenge than Brenda Mallory. Ms. Mallory is a deeply 
committed civil servant with extensive experience under both 
Democratic and Republican administrations. She is a kind, 
compassionate person who brings people together to find 
solutions.
    That is exactly the kind of leader we need working to 
address the climate crisis and improve access to clean air and 
water for all Americans, while creating economic opportunities, 
drive opportunities, too.
    We need that kind of leader at the EPA as well because we 
all know there's no shortage of leadership challenges facing 
the EPA. The agency has been damaged repeatedly over the last 4 
years. Policymaking at EPA should be grounded in science.
    Let me say that again: policymaking at EPA should be 
grounded in science. Leadership is needed there to restore 
scientific integrity to decisionmaking so the men and women 
working there every day can effectively address the climate 
crisis and other challenges facing our Nation and our planet. 
So, we need strong leadership at the EPA, and we need it 
without delay.
    Last month, we came together and advanced Michael Regan's 
nomination as EPA Administrator. I want to thank my colleagues, 
especially the Ranking Member, for your help in doing that. I 
hope we will see his nomination come to the floor for a vote by 
the full Senate very soon.
    When confirmed, Mr. Regan will need a Deputy Administrator 
by his side. Steady, experienced leadership is essential, and 
Janet McCabe will provide exactly that.
    Many of us here first met Ms. McCabe when she was in a very 
different role at EPA. For this position though, she will have 
a different mandate, overseeing management of the agency's day-
to-day operations. She is well-suited to meet that challenge; 
she has a deep understanding of the inner workings of the 
agency and its people and a profound commitment to their shared 
mission.
    How is this for a good fit: nine people who previously held 
the role for which she is been nominated, five Democrats, four 
Republicans, all recommended her for the job. Think about that. 
Let me say that again, it is worth repeating. Five Democrats 
and four Republicans who have held the job for which she has 
been nominated have all recommended her for this job. We don't 
see that every day.
    I am convinced that she will bring a profound dedication to 
public service as she works to rebuild morale, restore 
scientific integrity, and closely partner with States, our 
States, to protect the health of all of our communities.
    Many of our colleagues know that I like to quote Albert 
Einstein, who once said, among other things, ``In adversity 
lies opportunity.'' Well, we have no shortage of adversity in 
our Nation today, we know that. Whether it is this deadly 
pandemic, unemployment just beginning to show signs of 
improvement, or the growing climate crisis, there seems to be 
adversity just about everywhere we turn, but with that 
adversity, there's also great opportunity.
    There is an opportunity for us to unite in common purpose, 
to join together as fellow Americans, to do great things for 
our planet, for our Country, and for our neighbors, whether 
they live around the corner, across town, or on the other side 
of the world.
    The American people are looking to us to rise to today's 
challenges and turn those challenges into an opportunity for a 
better future. For them, for our States, and for us, let's not 
let them down.
    With that, I want to turn to Ranking Member Senator Capito 
for her opening comments. Senator Capito?

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you, Chairman Carper, and thank you 
all for being here. Thank you, Senator Blumenthal and 
Representative Carson, it is nice to see you again, and I 
appreciate your taking the time to introduce our candidates 
today.
    Last week, we had a very productive and positive hearing 
about how the committee can develop and advance a bipartisan, 
common sense surface transportation reauthorization bill. We 
heard about the importance of State flexibility and 
streamlining to get projects built faster, more efficiently, 
and to drive our economic growth. I look forward to building on 
that momentum of the committee and developing a bipartisan bill 
through the committee in regular order.
    Today, we have the opportunity to speak with two nominees 
to environmental policy positions in President Biden's 
Administration who have a great say over the path the 
Administration takes in that regard.
    I will be questioning potential regulatory overreaches by 
the administration beyond the authorities granted by Congress 
and this committee. I know that the two candidates, both Janet 
McCabe, who is the nominee for the Deputy Administrator of the 
EPA, and Brenda Mallory, who I have just met for the first 
time, the nominee to serve as Chair of the Council on 
Environmental Quality, will have very definitive answers.
    These two nominees certainly have a wealth of experience, 
and I certainly appreciate their willingness to serve and to go 
through this process as well, but, and we have talked on the 
phone and I appreciate the Zooms that we had, it would be no 
surprise to either one of them to know that some of the policy 
positions are causing me some concern.
    This Congress, and as our Chairman noted, our first nominee 
in front of the committee was the Secretary Michael Regan, who 
is presently head of the North Carolina Department of 
Environmental Quality. He has been nominated to serve as the 
Administrator of the Environmental Protection Agency, and he 
came out of this committee.
    What I said at our business meeting that month, I said 
Secretary Regan is the type of person I would like to see 
leading a Federal agency. He expressed a desire to work in a 
bipartisan manner and has a history of doing so.
    This is where our paths diverged. Unfortunately, the agenda 
has already been set by unconfirmed officials in the Biden 
Administration before Mr. Regan even has his hearing. That 
agenda is clearly shaping up to be a repeat of the Obama 
administration's regulatory agenda that devastated my State of 
West Virginia. Both of our nominees today served in politically 
appointed leadership roles in that administration and supported 
that agenda.
    In my view, that agenda means putting Americans out of work 
through executive orders like canceling the Keystone XL 
pipeline and rolling back common-sense regulations that protect 
our environmental while keeping our economy moving. It means 
promising the world that America will double down on reducing 
emissions while countries like China and India will get a free 
pass.
    The part that bothers me the most on these actions is the 
nonchalant attitude that I felt, and many of the people that I 
represent felt, during those years directed at them.
    According to a Politico reporter on Twitter, Gina McCarthy 
said at a recent event that after she saves the world from 
change, she will enjoy the most expensive glass of champagne I 
can find. She also said at an event in February that ``we have 
to get the middle of the Country understanding and active on 
climate. We have to show them what resilience looks like.''
    I think that the people of West Virginia and the people in 
the middle of the Country, they know what resilience looks 
like. We are experts in developing our energy resources and 
managing our land. What we don't need is an unelected or 
unaccountable, really, bureaucrat telling us that they know 
what is best for us or looking forward to celebrating, with a 
toast of expensive champagne, the policies that have cause pain 
in the past, and hopefully we can do better in the future.
    In that past Administration, Ms. McCabe reported to Ms. 
McCarthy. Ms. McCabe has said the Clean Power Plan was her 
proudest accomplishment, and we talked about this on our Zoom 
call, and I appreciate that.
    Let's just say I have strong feelings about the plan, as 
everyone on the committee knows. I led a congressional Review 
Act resolution to throw it out that passed our Congress, but 
was vetoed by President Obama. If the Clean Power Plan had been 
implemented, it would have imposed sweeping energy-shifting 
from coal and natural gas to wind and solar, preventing our 
gradual economic recovery from the Great Recession, a recovery 
that still hasn't been felt in parts of my State, thanks to 
some of these regulations.
    The Clean Power Plan was designed not to protect the 
environment, but to hurt fossil energy. My State, being a large 
fossil energy producer, was right in the middle of it and 
fought the rule in court with a host of other States. It never 
did go into effect.
    Ms. Mallory served as the General Counsel on the Council of 
Environmental Quality under President Obama. During that time, 
the Administration made no effort to modernize the decades-old 
regulations under the NEPA, the National Environmental Policy 
Act, and we talked about this in our hearing with the Governors 
how the permitting for transportation and infrastructure 
projects goes on for so long, a lot of it under the NEPA 
regulations, that it costs money and people abandon projects 
after a while.
    So, President Trump's CEQ did the right thing and updated 
those regulations to speed project delivery. Ms. Mallory has 
not minced words about her views on these regulations. When 
asked about the Trump Administration's rule, she said, and I 
quote, ``You almost don't have a choice but to remove the whole 
thing.''
    Her statements are not surprising, because she is presently 
working at the Southern Environmental Law Center. That center 
has challenged many critical Trump reforms that I supported, 
Navigable Waters, NEPA reform, Clean Water 401 reforms, and 
other things to try to help get more pipeline development 
forward.
    I look forward to talking with both of you, as I know 
everybody on this committee will, and the vision that you have 
in mind. I will say, I do thank you for being willing to serve. 
I know it is not easy, and certainly, the EPA and environmental 
regulations are always very, very difficult and cut both ways.
    I have shared with both of you my deep compassion for not 
just my State, but the economic devastation that regulation, 
when they are not looked at in the whole, can cause to certain 
areas of the Country and plunge people into poverty and into 
unsafe and unhealthy conditions. I know you are concerned about 
that as well, so let's try to find solutions together. I look 
forward to our nominees' testimony today, and thank you.
    Senator Carper. Thank you, Senator Capito. Senator Capito 
and I both hail from West Virginia, and she knows my sister and 
I were born near a coal-mining town named Beckley.
    We didn't have a lot; we never drank champagne; many of our 
neighbors were coal miners. Their jobs are gone, and I want to 
make sure, working with her and members of this committee, that 
as we move to clean up our air and address climate change, we 
don't leave any of them behind.
    With that in my mind, I want to thank our colleagues from 
Connecticut, both of you from Connecticut, actually, who are 
here to introduce our nominees. No, Indiana. Indiana. Sorry 
about that, Andre.
    I want to turn now to our colleague from Indiana to 
introduce our nominee for the U.S. Environmental Protection 
Agency. Where is your district?
    Mr. Carson. Indianapolis, Indiana, sir. Home of the Indy 
500.
    Senator Carper. Oh, yes. That is good. We are delighted to 
be here to introduce our nominee for the EPA, Janet McCabe.
    Do you want to go ahead and start, and then I will turn to 
Richard? Thank you. When I was a kid growing up in West 
Virginia, and later in Virginia, we used to watch, occasionally 
watch professional wrestling, and one of my favorite wrestlers 
was Andre the Giant. How tall are you?
    Mr. Carson. I am 6'4'', but growing up in Catholic School, 
they called by Andre the Giant.
    [Laughter.]
    Senator Carper. I am sure they did. Welcome, Andre. We are 
happy to see you. Thank you.

 OPENING STATEMENT OF HON. ANDRE CARSON, U.S. REPRESENTATIVE, 
        STATE OF INDIANA, SEVENTH CONGRESSIONAL DISTRICT

    Mr. Carson. Thank you. Well, good morning. I want to thank 
Ranking Chairman Carper and Ranking Member Capito, good to see 
you again, for holding this hearing.
    I am extremely pleased and honored to be here to introduce 
Janet McCabe, President Biden's nominee to be the Deputy 
Administrator of the Environmental Protection Agency. I could 
not be more supportive of her nomination, not only because she 
is a fellow Hoosier who has made our State proud, but also 
because she has demonstrated the character and experience 
necessary to succeed in this very key position.
    Her extensive career in environmental protection, 
education, and advocacy, spanning decades, reveals a consistent 
and passionate effort to be of service to others. She 
understands better than most that protecting and preserving our 
environment is about standing up for the most vulnerable among 
us. That includes children harmed by rampant pollution in their 
formative years, communities of color, which bear the brunt of 
environmental justice, struggling workers whose livelihoods are 
threatened by climate change, and more.
    This is why her nomination has garnered praise and support 
from all sides of the political and ideological spectrum. Her 
life and career demonstrate those Hoosier values of compassion, 
hard work, and seeking common ground. Under her leadership, I 
am very confident she will help the EPA return to its core 
mission and to make much-needed progress in ensuring we leave 
our planet healthier for future generations. I look forward to 
working alongside her to achieve this vital goal, should she be 
confirmed. Thank you.
    Senator Carper. Thank you, Mr. Carson.
    I will now turn to my colleague, not my roommate, but my 
seatmate in the Senate, Richard Blumenthal, to introduce Brenda 
Mallory to be the Chair of the Council on Environmental 
Quality. Colleague, welcome. Good to see you, thank you. Tell 
us about Ms. Mallory.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    I am honored and humbled to appear before you and Ranking 
Member Capito this morning, and thank you to my colleague, 
Representative Carson for being here.
    I couldn't be prouder than to introduce Brenda Mallory to 
the committee today. I couldn't be prouder because she is the 
best person for this job whom I know in the entire Country, and 
I couldn't be prouder because she is a daughter of Waterbury, 
Connecticut, although she has lived in Maryland for quite a few 
years.
    Her roots are really in Waterbury, and they reflect the 
values of that great city, a commitment to faith, family 
values, and tough work ethic, and commitment to community that 
really was reflected in her father, a legend, the Revered 
Thomas Mallory, who was so committed to caring for every 
individual and to bettering the community as a whole.
    Brenda Mallory really epitomizes the American dream. She 
was fortunate to go to a private school, an all-girls school, 
Westover, on a scholarship, changing the trajectory of her 
life. She was the first in her family to go to college, Yale, 
and then to Columbia Law School. She is married to Mark 
Schneider, also a lawyer, and a former clerk for Justice 
Blackmun. I share that experience.
    After graduating from Yale and then Columbia Law School, 
she spent time in private practice helping businesses and 
developers do the right thing in their communities, and then 
she worked in the Environmental Protection Agency. She spent 
half of her career fighting for the people of our Country, 
serving in both Democratic and Republican Administrations. More 
recently, she worked for a non-profit organization helping to 
advance environmental and natural resource protection.
    In short, she knows these issues, environmental issues, 
natural resource issues, from every side, and the Ranking 
Member, Senator Capito, used two words: bipartisan and common 
sense to describe what the goals are of this committee. Brenda 
Mallory is bipartisan, and she has common sense in dealing with 
all of these issues.
    Remember that Congress established the Council on 
Environmental Quality under the National Environmental Policy 
Act, NEPA, which was signed into law by President Richard 
Nixon, obviously a Republican. Environmental values should be 
bipartisan, and Brenda Mallory has lived those values without 
regard to partisan politics.
    I would stress about her, and it may be the most important 
quality that any of us in public life have, that she is a 
listener. I know that the Chair and Ranking Member pride 
themselves on listening to their constituents. She listens, 
truly, adeptly, closely, carefully to people who have views 
different from hers, as well as the same. That quality, I 
think, is one that will stand her in good stead, along with her 
commitment to coalition-building, taking people from different 
sides of an issue and bringing them together, and making sure 
that they understand each other and have a common goal.
    She is committed to racial justice as well as environmental 
and social justice, and she will make Waterbury and Connecticut 
proud of her record as the Head of the Council on Environmental 
Quality.
    I think, as I said at the outset, there is no one better in 
the Country to take this position of Chairman of the Council of 
Environmental Quality, and I am hopeful that she will have the 
kind of bipartisan support she deserves.
    Thank you, Mr. Chairman and Ranking Member Capito.
    Senator Carper. Congressman Carson and Senator Blumenthal, 
those were lovely introductions.
    Mr. Carson. Mr. Chairman, votes have been called, so I have 
to leave, but thank you for your time, and all the best to 
Janet and her husband.
    Senator Carper. All right. I was just about to move the 
nominations, but we will let you go and do your business. Thank 
you so much for joining us today. It means a lot, thank you. 
Richard, thank you again. Great to see you. Now, we are ready 
to welcome our witnesses, Ms. Mallory and Ms. McCabe, to the 
witness table please.
    Ms. Mallory, I am going to ask you to start first, and 
share with us your opening statement. I understand that you 
might have a special guest with you, and if you feel like 
introducing him, feel free. You are recognized. Welcome.

 STATEMENT OF HON. BRENDA MALLORY, NOMINEE TO BE A MEMBER AND 
         CHAIR OF THE COUNCIL ON ENVIRONMENTAL QUALITY

    Ms. Mallory. Good morning, Chairman Carper, Ranking Member 
Capito, and members of the committee.
    Thank you for the opportunity to appear before you today as 
the nominee for the Chair of the Council on Environmental 
Quality.
    It is the greatest privilege of my professional life and a 
blessing in my personal life that President Biden has nominated 
me for this important position on his environmental team. I 
want to thank President Biden for this nomination and for 
trusting me to lead CEQ.
    Thanks, Senator Blumenthal, for that wonderful and kind 
introduction. I also want to thank the members of the committee 
and their staff who took the time to meet with me prior to this 
hearing. I thoroughly enjoyed and learned from every 
conversation.
    Finally, I want to thank my family, friends, and colleagues 
for all the support and encouragement, with special gratitude 
to my husband, Mark Schneider, who is here with me today.
    Senator Carper. Mark, could you raise your hand? Thank you.
    Ms. Mallory. And to my three children, Rachel, Alex, and 
Leslie, who give added purpose to all that I do.
    Since President Biden announced his intention to nominate 
me for this role, I have reflected on the journey that brought 
me to this moment and the service I can provide the American 
people if I am fortunate enough to gain your support and be 
confirmed. My humble beginnings in the city of Waterbury, 
Connecticut did not lead me to expect this moment, but they did 
teach me that through hard work and commitment, faith and 
resilience, and with the strong support of family and 
community, the unimaginable becomes possible.
    I am sorry that my parents did not live to see this moment. 
In their own way, they left an indelible mark through their 
service to family, church, and community. I sit here as an 
embodiment of their values.
    First, I strive to bring the best I have to offer to every 
situation. I have always taken great pride in finding ways to 
make a difference wherever I am. In private practice, that 
meant helping my clients, companies, cities, trade 
associations, navigate complex Federal and State permitting 
processes. In government and in the non-profit sector, that has 
meant pursuing common ground for practical solutions.
    Second, I believe in the dignity of every person. Both 
professionally and in my volunteer activities, I have worked to 
advance policies that recognize our common humanity and are 
designed to ensure that all people are treated with respect and 
can have access to clean air, clean water, and toxic-free 
environments.
    Third, I believe in working collaboratively with all 
stakeholders around common goals. Throughout my career, I have 
worked effectively with Republicans and Democrats, business 
leaders and community advocates, and Federal, State, and local 
governments.
    These are the hallmarks of my life and career that I will 
bring in service of the Council on Environmental Quality and 
the American people.
    If I am confirmed, I will work to ensure that the Federal 
environmental laws work for all people, no matter where they 
live or who they voted for. I will work to demonstrate that we 
can protect our environment, create jobs, and grow our economy. 
I will ensure that CEQ plays its role, leading on environmental 
and natural resources policy, across the Federal Government and 
listening, truly listening, as we find solutions that serve the 
public interest.
    Among other things, I will work with all stakeholders to 
advance efficient permitting approaches that also examine the 
environmental consequences and engage affected communities.
    I will see that CEQ's expertise is applied to the challenge 
of reducing greenhouse gas emissions and to helping communities 
to prepare for the increased flooding, more frequent hurricanes 
and wildfires, and other impacts of climate change that are 
already occurring.
    Finally, I will ensure that the voices of the poor and the 
powerless, from the most rural parts of America to our biggest 
cities, are heard as we tackles the environmental and public 
health crises the Nation faces.
    Mr. Chairman, Ranking Member Capito, and members of the 
committee, thank you again for the opportunity to appear before 
you. I am happy to answer any questions, and I look forward to 
working with you and other Members of Congress should I have 
the honor of being confirmed. Thank you.
    [The prepared statement of Ms. Mallory follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    Senator Carper. Thank you very, very much for that 
statement and now, I would ask Janet McCabe to proceed with her 
opening remarks. Ms. McCabe? Welcome.

     STATEMENT OF HON. JANET McCABE, NOMINEE TO BE DEPUTY 
      ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCabe. Thank you so much, Chairman Carper, Ranking 
Member Capito, members of the committee. I am honored to appear 
before you and grateful for your time this morning.
    It is so humbling that President Biden has nominated me to 
serve as Deputy Administrator of the Environmental Protection 
Agency. If confirmed, it will be a tremendous honor to return 
to the agency and to work collaboratively with you, with EPA's 
many partners, and the wonderful EPA staff to protect the 
health of American families, communities, and our environment. 
I am eager for you questions today and to hear from you about 
your priorities for your constituents.
    I would like to thank my family: my husband Jon Laramore, 
who's here with me today.
    Senator Carper. Jon, would you raise your hand? Would you 
raise both hands?
    [Laughter.]
    Ms. McCabe. My children, Peter, Alice, and Dan, and my 
little baby grandson, Remy, who gives a whole new meaning to my 
work and my commitment to creating a healthier, safer, and 
brighter future. I am so grateful for their support.
    Senator Carper. How old is Remy?
    Ms. McCabe. He is 16 months.
    Senator Carper. Is he being supportive?
    Ms. McCabe. He is a tremendous support. I got a photo from 
him in his highchair yesterday.
    Senator Carper. Good. All right.
    Ms. McCabe. Since the start of my career, I have had the 
privilege to contribute to creating healthier, more livable 
communities for all Americans. I learned early on how poor air 
quality can worsen asthma and other respiratory problems, 
leading to higher medical bills, missed days of school and 
work, and an overall diminished quality of life.
    Air pollution is connected with heart disease, cancer, and 
birth defects. It shortens lives. These and other public health 
issues facing our fellow Americans have motivated my work.
    I have spent most of my career working for State and 
Federal environmental agencies in Massachusetts, my long-time 
adopted home State of Indiana, and at the EPA, with a focus on 
implementation of the Clean Air Act and other air quality 
issues. During my seven and a half years in the EPA's office of 
Air and Radiation, I worked on the entire range of air quality 
issues and became very familiar with the core operations of the 
agency.
    During that time, I got to know and admire many of the fine 
career staff. They come to work every day committed to helping 
the American people live healthier, more productive lives. I 
can't say enough about the public servants in our government, 
State and Federal, who do what the public expects of them, from 
one Administration to the next.
    At EPA, it is the scientists, the program staff, the 
regional teams, the environmental justice leaders, the 
individuals who support all the agency day-to-day operations, 
and so many more who truly fulfill the agency's mission of 
protecting human health and the environment. If confirmed, it 
will be an honor for me to join them once again and support 
their work on behalf of public health and the environment.
    When I worked in the Office of Air and Radiation at EPA, I 
focused on the critical partnership between EPA and the States. 
I know from my own experiences in both State and Federal 
agencies that the Federal-State partnership is fundamental to 
achieving progress, overcoming complex challenges, and 
delivering for the American people.
    This relationship requires openness, transparency, 
flexibility, and a willingness to listen, even if there are 
times when we do not agree. Being open and willing to listen to 
all stakeholders is how EPA should be doing its business, and 
if I am confirmed, I will be guided by a commitment to 
fostering open dialog and giving as many as possible a seat at 
the table.
    While at EPA, I also worked hard to strengthen the 
relationship between the headquarters and the ten regional 
offices. We worked on streamlining reviews and approvals, 
improving communication with our State partners, ensuring 
consistent implementation of national programs, and valuing the 
expertise that each person brought to the issues.
    In addition to my government service, I previously served 
as Executive Director of a small children's environmental 
health non-profit in Indianapolis, where I got to work directly 
with families worried about lead paint or clean water. That 
work was so rewarding and gave me a better understanding of how 
challenging these issues can be for families around the 
Country. If confirmed, I will work to ensure that all children 
can share equally in the promise of clean water to drink, clean 
air to breathe, and the opportunity to lead a healthy and 
productive life.
    In my more recent work with Indiana University and the 
Environmental Resilience Institute there, I have worked with 
many local governments across Indiana developing resources and 
tools to help them address the environmental challenges they 
face, listening to them first to find out what their needs 
were, and how the university could help, making their 
communities healthier and more economically vital.
    From all of my experience, I know firsthand that our 
programs to improve public health and protect our environment 
are strongest when they are informed by a diversity of 
perspectives and rooted in science, transparency, and the law.
    As the grandmother of one little boy and with another 
grandchild due to arrive later this month, I promise that if I 
am given the opportunity, I will work alongside our talented 
EPA staff to help ensure that all of our children and 
grandchildren can grow up in a cleaner, healthier, and more 
equitable world.
    If confirmed, I would be honored to work with Secretary 
Regan and all of you to make that a reality.
    I look forward to your questions, and thank you again for 
your time this morning.
    [The prepared statement of Ms. McCabe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Senator Carper. Thanks, Ms. McCabe.
    As our colleagues know, we begin, once we have heard from 
our witnesses, your statements, what the chair does is ask 
three standard questions of our witness. I would ask you just 
to respond to each of these.
    The first question is, do you agree, if confirmed, to 
appear before this committee or designated members of this 
committee and other appropriate Members of the Congress, and 
provide information subject to appropriate and necessary 
security protections with respect to your responsibilities? Do 
you?
    Ms. Mallory. I do.
    Ms. McCabe. I do.
    Senator Carper. Do you agree to ensure that testimony, 
briefings, documents and other electronic forms of information 
are provided to this committee in a timely manner?
    Ms. Mallory. I do.
    Ms. McCabe. I do.
    Senator Carper. Finally, do you know of any matters which 
you may or may not have disclosed which may place you in a 
conflict of interest if you are confirmed?
    Ms. Mallory. No.
    Ms. McCabe. No.
    Senator Carper. Thank you. We are going to start with our 
first round of questions.
    First question I want to ask, before Senator Inhofe, who 
has been a past chair and ranking member as well, of this 
committee, he and I participate almost every week in Bible 
study. We are people of deep faith, a number of us are. We are 
guided by our faith. I was interested, you talked about your 
faith and your parents' faith. How does your faith guide you? 
How would it guide you with respect to the responsibilities 
that you have been nominated to fulfill?
    Ms. Mallory. Thank you, Senator, for that question. I think 
my faith is a very important anchor in all that I do, and has 
been a force in helping me to navigate the various trials and 
tribulations in life, and to find a way to look for purpose in 
how I can help people and to do the work, whatever I am called 
to do, in a way that advances peoples' lives. That is my goal, 
and that is what I would do if I was confirmed to serve at the 
Council on Environmental Quality.
    Senator Carper. Does the Golden Rule fit in there anywhere? 
The Golden Rule?
    Ms. Mallory. Absolutely, Senator. I think that does 
actually does inform the way I interact with people. I expect 
and I look forward to working with people in a way that gives 
honor to what they are bringing to the table. I try to bring 
the same energy and the same approach to issues that I would 
like to have people bring to me when I am engaged on issues.
    Senator Carper. All right, thank you. Ms. Mallory, speaking 
from your own experience, would you tell us how important CEQ 
is in coordinating all of this? How would your experience guide 
your leadership at CEQ if confirmed, making sure that all 
stakeholders have a voice in our Nation's environmental policy?
    Ms. Mallory. Yes, Senator, thank you so much for that 
question.
    The CEQ, as has already been stated, was created under the 
National Environmental Policy Act, with a broad mission to 
assist the President on environmental policy across the 
spectrum, on a broad range of issues. I think the goal of CEQ 
over time has been to serve the role of knitting together all 
of the work that is being done across the agencies, and helping 
to bring to the President and to the White House staff the 
information about the expertise that folks have in the 
agencies, and how it can be applied toward the President's 
agenda.
    That is a role that CEQ has played over the years, and in 
my time at CEQ, was a very important part of the work that I 
assisted in doing.
    That, I think, particularly the more complicated the 
issues, and the more issues there are to address, becomes 
really important in ensuring that there is the important 
coordination. Coordination in terms of my own experience has 
been really the key of all the work that I have done, both in 
private practice as well as in my various roles in the 
government, that ability to bring groups of people together 
around a common goal has been very central.
    One of the projects that I started on in my private 
practice career was to basically help in the environmental and 
historic resources analysis and strategy for what is now the 
Capital Center Arena. There were many players involved in that 
project, many different businesses. It was an important 
economic development opportunity for the District of Columbia.
    It was one of the examples where I was tasked, basically, 
to bring together all the forces around, in particular the 
historic resources issues, which was central to overcoming the 
concerns of the community around those issues, and making sure 
that they were handled in a way that met a very short timeline 
that required completion of the permits, so that financing for 
the project was available.
    Senator Carper. Thank you very much for those responses.
    I am going to turn now to Ms. McCabe and ask, would you 
tell us about some of the environmental challenges that you 
have seen at the community level in Indiana, where you work and 
where you have lived much of your life? How have they impacted 
your thinking about environmental policy generally? Would you 
also share some of the lessons you have learned in working with 
local governments that will inform your leadership at EPA if 
confirmed?
    Ms. McCabe. Yes, thanks, Senator. I think one of the most 
compelling issues that I have had close personal experience 
with dealing with families on is the issue of childhood lead 
poisoning, which is a serious concern in Indianapolis, and in 
various cities in Indiana, and all across the Country, due to 
our ageing housing structure, the legacy of lead in our 
environment. There is nothing more tragic than the youngest and 
most vulnerable of the people in this Country being exposed to 
these things, with potentially life-altering damage to their 
neurological systems.
    Being able to sit in a kitchen with a family and show them 
where the dangerous lead paint is on the windowsill, and give 
them some practical help on how to protect their children is 
just the most fulfilling and important work.
    In my work more recently, with the Indiana Environmental 
Resilience Institute, we have really focused on trying to help 
cities and towns across the State of Indiana. I love working 
with mayors. They are so practical.
    Senator Carper. Can you hold on.
    Did you hear that?
    Senator Inhofe. I heard that.
    [Laughter.]
    Senator Carper. I am a recovering Governor. He is a 
recovering mayor.
    Ms. McCabe. It is really true, Senator, I don't usually 
know what party the mayors are.
    Senator Carper. They don't know, either.
    Ms. McCabe. They are dealing with the practical problems in 
their communities.
    Senator Inhofe. Yes, but you know what, I tell my friends 
up here, they don't understand. Because if you really want to 
know what is going on, you want to be a mayor. If they don't 
like your garbage system, it ends up in your front yard. They 
get your attention. So that is working close to the people, and 
I am in full agreement with that.
    Ms. McCabe. Absolutely.
    Senator Inhofe. You paid your dues.
    Ms. McCabe. Well, it is honest and true, I talked with the 
mayor from Huntingburg, Indiana. We are having more increased 
flooding in Indiana, because of how the climate is changing. 
The mayors, they just look upstream, and here comes the water, 
and they have to deal with it. How does that mayor explain to 
his community that we have just had three 500-year floods in 18 
months? First, they have to learn what a 500-year flood was, 
and then figure out how to deal with it.
    So that has been incredibly fulfilling work. It just 
reminded me so much how you really have to listen to people and 
go and sit in their kitchens and find out the things that are 
concerning them and how you can best help them.
    Senator Inhofe. Yes.
    Senator Carper. My time has expired. Senator Capito, 
please.
    Senator Capito. Thank you very much. Thank you for your 
opening statements.
    You both talked a lot about listening, and listening to all 
the stakeholders. So I have a couple of quotes, and I want to 
give you a chance to respond to how you might, how that fits 
into the listening promises of your past and hopefully in the 
future.
    So you might recall, Ms. McCabe, that when you testified 
before the committee in 2015, when you were at the EPA, and I 
asked you then, why, with such a far-reaching agenda as the 
Clean Power Plan, why you were not holding a public hearing in 
my State of West Virginia, which is deeply impacted by this. 
You said at the time ``We wanted to have those meetings in 
locations where people were comfortable coming.''
    Then, Ms. Mallory, you gave an example from your private 
Federal service webinar, I guess it was in 2019. And the quote 
you have was, ``The question was whether I should be sent to a 
meeting in West Virginia, because you know how the boys are in 
West Virginia.'' And then you talked about a perception among 
higher levels of government leadership that the people in West 
Virginia were ``rough and tumble.'' You stated, ``This was 
coming from two levels above me and my direct supervisor was 
like, I am not comfortable with those people.
    You can imagine how that hits you, being a native West 
Virginian myself, and also in these policies that you all are 
going to be putting forward and coordinating are going to have 
deep impacts on the 1.8 million people living in my State.
    So I am concerned about previous sessions that were never 
held, to be listened at the concerns of my constituents. So I 
guess my question is, could you respond to that? Do you plan to 
go out to these areas where they are deeply impacted? You 
didn't before. Ms. McCabe, I will give you the chance first to 
talk about that conversation.
    Ms. McCabe. Thank you, Senator. I know how frustrating this 
issue is for you. I do understand that. I heard Secretary Regan 
commit to you that he would come to West Virginia. I make the 
same commitment to you today, that if I have the opportunity to 
visit with you and your constituents in West Virginia, I 
absolutely will come.
    Senator Capito. Thank you. And Ms. Mallory, do you have a 
response to your quote?
    Ms. Mallory. Absolutely. I absolutely commit as well to 
come to West Virginia. For a little context on that quote, it 
was a speech that I was giving at a conversation about 
diversity and treating the staff, in this case it was women, 
fairly on the job. On the job, I was explaining how in a 
situation where there was a meeting in West Virginia, that 
there was some sense that I shouldn't be allowed to go because 
of how people would react to me.
    At the time, what I was saying was, I should be allowed to 
go where I need to go to do my job. I would commit to you that 
if there are reasons to be in West Virginia, I will gladly come 
to West Virginia.
    Senator Capito. I appreciate that. We are very polite, 
nice, warm and loving people. I promise you that, and we would 
embrace your coming to our State to hear, really, the direct 
impacts.
    Let's talk about the Clean Power Plan, Ms. McCabe. You did, 
I think, characterize it as something you are extremely proud 
of. We know it was a stay at the Supreme Court level and never 
actually went into effect.
    One of the issues with that, and I asked Secretary-to-be 
Regan about this too, but I am going to ask you. Do you believe 
that the EPA has the authority to use Section 11(d) of the 
Clean Air Act to regulate a power plant's carbon dioxide 
emissions outside the fence line, as the Clean Power Plan did?
    Ms. McCabe. Thank you, Senator Capito. Certainly, the Clean 
Power Plan was one of the most important, impactful rules that 
we work on during the Obama administration. I am very proud of 
the job that we did, working with all parties, all 
stakeholders, on that project.
    You are right, the Supreme Court did stay the rule. We have 
never had a legal ruling on that very question. Certainly, we 
would not have put that rule forward if we did not believe that 
we were acting within the four corners of the Clean Air Act. I 
understand that people have different views about that. To the 
extent that EPA or other agencies move forward, looking at 
these policies in the future, I don't know whether my 
responsibilities as deputy will involve me in those issues. If 
I am asked, of course, I will. But I know that there will be 
lots and lots of conversation about that very issue, and 
solicitation of views from everybody who has an interest in it.
    Senator Capito. Thank you.
    Senator Carper. Thanks, Senator Capito.
    I am going to be stepping out in just a moment, and will 
leave the gavel with you. I would just ask that when I come 
back I don't find that you have enacted six of your favorite 
pieces of legislation.
    [Laughter, conversation off microphone.]
    Senator Carper. That really scares me. Just kidding.
    Senator Whitehouse is next, he is joining us by WebEx, and 
then I think Senator Inhofe might be right after him.
    Senator Whitehouse, you are recognized. Senator Whitehouse, 
are you out there? Is anybody out there?
    Senator Inhofe, you are recognized. I will be right back.
    Senator Inhofe. Thank you. I accept.
    Brenda, I enjoyed your comments, and I thank you very much, 
both of you. I enjoyed visiting with you. In reality, we know 
that we disagree on some things, and we were very frank about 
that in our conversations. But you know, I used to kind of 
laugh about Barbara Boxer, commenting that she and I had very 
little in common philosophically. But we got more done than any 
other committee did. So hopefully we will have that kind of 
relationship.
    So let me just mention to both of you one thing I think is 
very significant. I know we feel differently about fossil 
fuels. I understand that. And just to get into the record this 
point, since 1970, the combined emissions of the six common 
pollutants dropped 74 percent. Since 2005, the United States 
energy-related CO2 emissions fell by 12 percent while related, 
nationally it was increased by 20 percent.
    This is, in large part, a result of American oil and gas 
companies' commitment to responsible, environmentally friendly 
practices and advancements in technology like carbon capture.
    [Remarks off microphone.]
    Senator Inhofe. Ms. Mallory and Ms. McCabe, would you agree 
that if oil and gas is going to be produced anywhere in the 
world, it should be in America? And shouldn't we export it 
around the world so that everyone has access to the cleanest 
oil and gas in the world?
    Ms. McCabe. It is certainly possible, and a good thing, for 
all energy to be produced in as clean a way as possible. We 
certainly do have the tools in this Country. And the companies 
have the tools in this Country to do that.
    Senator Inhofe.
    [Remarks off microphone.]
    Ms. Mallory. Yes, Senator, I believe that we have the 
ability to look at some of the issues that are presented in a 
way that will improve the quality of the oil and gas, and that 
is important.
    Senator Inhofe. Thank you. A second thing is, we have 
talked about small refinery exemptions. I talked to both of you 
about that. When we talked about that, I shared with you that 
SREs are of great importance for refinery States like Oklahoma.
    The Supreme Court has taken up a case, HollyFrontier v. 
RFA, which could decide the future of small refinery exemptions 
in States like Oklahoma. What I would like to ask both of you, 
this will be to you, Ms. McCabe, will you commit to encouraging 
EPA to delay any action on SREs until after the Supreme Court 
has issued its decision?
    Ms. McCabe. Senator, I believe EPA has already indicated 
that that is their intent, to wait until after the Supreme 
Court issues a decision.
    Senator Inhofe. OK. How about you? Do you agree with that?
    Ms. McCabe. I wouldn't disagree with that. I am not at the 
agency yet. But that makes sense to me, sure.
    Senator Inhofe. That is fine. And the last thing, I want to 
get this in, because I won't be here for the second round, so I 
might as well go over a little bit. Senator Padilla, if that is 
OK with you, I will go ahead.
    This has to do, well, Ms. McCabe, as you know, the United 
States is heavily reliant on imports of critical minerals used 
in things from electronics to missiles, and also you are both 
aware that I spent a number of years as chairman of the Senate 
Armed Services Committee, so this is right in my area.
    Mining is one of the most heavily regulated domestic 
industries in America with dozens of State and Federal laws and 
regulations.
    [Remarks off microphone.] The Fiscal Year 2021 NDAA, that 
is the National Defense Authorization Act, I was a principal 
author of that, requires the DOD to assess the sources of our 
mineral imports the vulnerabilities of the American mineral 
supply chain. In other words, we produce them here.
    So I am going to ask you, Ms. McCabe, will you commit to 
supporting a strong domestic mining industry and work force so 
as to reduce our dependence on foreign imports of minerals? I 
ask that question.
    [remarks off microphone] you and I talked about it,
    [remarks off microphone].
    Ms. McCabe.
    [Remarks off microphone] strong industry here in the United 
States producing good jobs for Americans, and also attention to 
making sure that those activities are done in a way that 
protects our health and our environment.
    Senator Inhofe. I am sure the mining industry would be very 
appreciative of that response.
    Thank you very much, Madam Chairman.
    Senator Capito.
    [Presiding] Senator Padilla.
    Senator Padilla. Thank you, Madam Chair.
    Senator Inhofe, it is not just mayors who get that very 
personal treatment from constituents. So do council members in 
many places.
    Senator Inhofe. Oh, I know.
    [Laughter.]
    Senator Padilla. Ms. Mallory, Ms. McCabe, thank you both 
for your willingness to serve.
    A couple of very quick questions for the two of you, then I 
have two questions, one for each. No. 1 is, do you believe in 
science, yes or no?
    Ms. Mallory. Yes.
    Ms. McCabe. Absolutely.
    Senator Padilla. Do you look forward to making decisions 
based on science and data, yes or no?
    Ms. Mallory. Yes.
    Ms. McCabe. Absolutely.
    Senator Padilla. Thank you. Next question is for Ms. 
McCabe. We had a chance to discuss briefly just yesterday, and 
you recognized that California has long been a leader, not just 
in environmental policy and stewardship generally, but 
specifically in the area of fuel economy standards. One of my 
priorities is to ensure that we restore California's undisputed 
authority to set fuel economy standards that are safe, 
affordable for consumers and obviously good for the 
environment.
    California standards are such that several auto makers 
entered into voluntary agreements with the State of California 
to make the stricter standards than the prior Administration 
sought to impose. So the question is another simply yes or no. 
Would you work with us under this Administration in partnership 
with California on fuel economy standards that can improve 
standards and environmental quality nationally?
    Ms. McCabe. Senator, if confirmed, I would gladly commit to 
you to work in partnership with the State of California. They 
have been a real leader on these issues of fuel economy and 
auto standards.
    Senator Padilla. Thank you very much.
    Next question, for Ms. Mallory. Throughout my time in 
office, I have prioritized not just environmental protection 
policy, but environmental justice policies, specifically for 
communities that have too often borne a disproportionate brunt 
of pollution, contamination, toxics, traffic congestion, 
proximity to Superfund sites, etc.
    It is an issue that is personal to me. I grew up in one of 
the first experiences in terms of being active in the community 
was standing alongside my mother as we blocked trucks from 
entering the Lopez Canyon landfill in Los Angeles County, 
California, because of its impact on the community that we 
lived in, air quality, traffic, trash, et cetera.
    Years later, I would serve on the Los Angeles City Council 
and supported the creation of an environmental justice zone 
which is a designation that provides extra consideration to the 
cumulative impacts of new developments for areas that have a 
high concentration of facilities, such as solid waste 
processing, recycling, et cetera. You are probably familiar 
with the fact that in California we have a mapping and 
screening tool called calenviroscreen, to help identify 
communities with the most significant pollution burden. It 
collects data on 20 indicators to help California policymakers 
identify disadvantaged communities, to prioritize our climate 
investments.
    It is worth noting that California's tool goes further than 
the EPA's environmental justice screening tool in that 
California includes some non-environmental indicators like 
education attainment for populations in the area, high housing 
costs, unemployment and more. It also allows for identification 
of cumulative effects that policymakers can compare census 
tracts and identify communities most at risk.
    Thanks to this tool, California has been able to invest 35 
percent of revenues from our cap and trade program in over-
polluted communities to ensure we are targeting our 
investments, which serves as a potential model for the new 
Administration.
    Ms. Mallory, my question is, what you think are some of the 
best ways to identify some of these overburdened communities? 
Can tools like the environmental justice zone or California's 
modeling help the Biden Administration meet its commitment to 
40 percent of the benefits from clean energy and infrastructure 
investments benefiting disadvantaged communities?
    Ms. Mallory. Thank you, Senator. I appreciate that 
question.
    As we discussed when we met, I think the environmental 
justice obviously is being given a front and center place in 
President Biden's agenda, at CEQ in particular. Among the 
things that have been tasked to CEQ already is standing up the 
infrastructure through an interagency task force as well as a 
FACA, Federal advisory committee, working with citizens from 
across the Country.
    But in addition, there is a responsibility to look at a 
screening tool specifically with the idea that these tools can 
be really important in helping to understand the extent of the 
problem, where we should be focusing and locating our energies. 
So I believe that those are going to be front and center in 
terms of how the Administration is going to be focusing the 
issue.
    If I am confirmed at CEQ, those would be approaches that I 
would definitely be keeping in mind and talking to the staff 
about. As we have discussed, I look forward to partnering with 
you on that issue if I am confirmed.
    Senator Padilla. Thank you very much. Thank you, Madam 
Chair.
    Senator Capito. Senator Cramer.
    Senator Cramer. Thank you, Madam Chair. Thanks to both of 
you for being here, and thank you for the time on the phone. It 
was helpful to me.
    Ms. Mallory, I am going to focus on you for the first 5 
minutes. As you know, obviously, CEQ plays a really important 
role in infrastructure review and approvals. Your current 
employer, the Southern Environmental Law Center, has been a 
high profile litigant against numerous pipelines within the 
States that you are now going to have oversight of.
    When you joined the SELC, you said it was a ``perfect 
fit.'' The Atlantic Coast Pipeline was canceled, and one of 
your colleagues was quoted as saying, ``This risky and 
unnecessary project is on the scrap heap where it belongs, and 
the decks are cleared.'' Do you agree with your colleague's 
sentiment? Is there at least one well-known pipeline project 
that you ever supported?
    Ms. Mallory. Thank you, Senator Cramer, I really appreciate 
that comment, because it goes to the heart of something that I 
think is important for establishing with you and the public in 
general, which is, I take very seriously the role that I would 
play as a Federal official serving the Administration, and in 
particular, serving the American people. I have had really 
broad experience, as you have heard, which has brought me in 
contact with and working with a number of different 
stakeholders over the past time.
    But in the job as the chair of CEQ, if I am confirmed, my 
job will be focused on serving the American people and serving 
President Biden's agenda. So those issues, no, they would not 
drive the way that I approached any particular issue.
    Senator Cramer. Have you ever supported a pipeline, and if 
so, what differentiated that pipeline from the ones we 
discussed?
    Ms. Mallory. In fact, as I said, in my life as a private 
practice lawyer, I worked with pipelines and helped pipelines 
get permitted as well. But that was 20 years ago, and what I am 
focused on now is serving President Biden's agenda.
    Senator Cramer. OK, great, so let's get to something real 
recent and current. The Dakota Access Pipeline, which as you 
might imagine, is real important to North Dakota, begins in 
North Dakota, moves about 600,000 barrels of Bakken crude to 
market every day. Been operating successfully now for 4 years 
without any incidents.
    They were recently ordered to redo its NEPA, as you are 
probably aware. After it was built and safely operating, Judge 
Boasberg here in the District of Columbia ordered that the 
pipeline be shut down and required a full EIS to be conducted. 
Thankfully, the circuit disagreed at least in part with his 
ruling, and realized that following that decision it wouldn't 
be shut down. So it allowed the pipeline to stay in operation, 
thank goodness.
    As a reminder, the company did do an EA, instead of an EIS. 
Now through this external litigation they are being forced kick 
through shifting goalposts. Of course, it is litigation from 
organizations like yours.
    Despite what seems to me and I think to most North Dakotans 
and most people with common sense, the insanity of all of this, 
the real question comes down, well, let's just say that both 
the company and the Army Corps of Engineers, the two entities 
most involved in this, of course, are complying with this EIS, 
I think everyone should understand that, as ordered.
    Should you be confirmed, can you commit that the White 
House will not interfere with the timely progression of the 
results of the EIS? I ask that question because we know there 
is a lot of political pressure being applied to the White House 
and to the President himself to stop the Dakota Access Pipeline 
after these 4 years of successful operation. Can you commit 
that the White House won't interfere politically?
    Ms. Mallory. Senator, I can commit that I will carry out 
the President's agenda in making sure that the decisions that 
are made are based on sound science, and full integration of 
information that we have about issues. I am happy to commit to 
you that if we move forward and I am confirmed and this issue 
is before us, I am happy to talk to your office about it.
    Senator Cramer. Well, I am happy to do that, except that 
the science is, I appreciate your commitment to science. The EA 
was done. And it was done under the Obama administration and 
approved by the U.S. Army Corps of Engineers. And the EIS is 
being done for all good scientific reasons.
    So I would hope, I would hope that that at the end of all 
that good science and discussion with my folk we can keep the 
Dakota Access Pipeline operating, lest we become dependent on 
other nations again.
    I think given the shortness of my time, I will wrap it up 
there, Madam Chair.
    Senator Capito. Thank you.
    It is my understanding that we don't have other Democrats 
lined up, so I am going to keep going down the Republican side 
and go to Senator Lummis by WebEx. Senator Lummis, are you 
there? All right, we will go to Senator Boozman. Busy day here 
on Capitol Hill. Senator Lummis, there she is.
    Senator Lummis. Thank you. I am so sorry. Little technical 
difficulties here.
    Ms. Mallory and Ms. McCabe, you have both worked at the EPA 
during the Obama administration. During your time at EPA, the 
Obama administration's Interagency Working Group on the Social 
Cost of Carbon met behind closed doors with no public 
engagement to revise what is known as the social cost of 
carbon. Federal agencies use this figure to justify regulations 
on greenhouse gas emissions, no matter how large or how small.
    My question is this. During your time there, were you in 
any way involved in this working group? And if you were, please 
detail your role.
    Ms. McCabe. Senator, this is Janet McCabe. I was not 
involved in the working group to develop the social cost of 
carbon.
    Ms. Mallory. Senator, CEQ was a participant in the working 
group on the social cost of carbon during the Obama years.
    Senator Lummis. Thank you for saying so. The interagency 
working group did not publicly list individuals that 
contributed to the work group's efforts. Public input was 
limited. President Biden reconstituted this working group and 
directed it to revise the existing costs. Only five of the 12 
Senate-confirmed positions that lead agencies in the working 
group are confirmed thus far. Last Friday, the Administration 
reverted to the Obama-era cost estimates.
    So I raise this issue to reinforce the need for openness 
and transparency in how critical data is developed. I think 
this is particularly important when the figure is used to 
rationalize costly job-killing new regulations. This is an 
issue that is important to my State, so hence my raising the 
issue.
    Moving on, if confirmed, will you inform this committee and 
the public of CEQ or EPA's participation in the Interagency 
Working Group on Social Cost of Carbon, including all offices 
and staff that are participating and representing your 
respective organizations?
    Ms. Mallory. Senator, I can say that CEQ definitely expects 
to be involved in the social cost of carbon working group going 
forward. That has been laid out already by the President in the 
Executive Order. That process before, under the Obama 
administration, was one that went on for a number of years. 
There was extensive public process associated with it before a 
decision was ultimately rendered, which is why understanding is 
that the Administration felt they could move forward with an 
updated version of that estimate now, while a new process is 
being set up and opportunity for public participation will be 
included in it.
    Ms. McCabe. Senator, that is my understanding as well. I 
agree with Brenda, I expect there will be a process that will 
involve people having an opportunity to weigh in.
    Senator Lummis. Thank you for that. So I am assuming that 
both of you support using the regulatory review process for 
future revisions to the social cost of carbon.
    Ms. Mallory. Senator, I am not sure what you mean by 
regulatory review process. I think that the process that was 
previously used to ensure that there was an opportunity for 
input by the public and experts in the area is what is 
anticipated at this point. That is my sense from the outside.
    Senator Lummis. Well, we have recommendations that the 
working group go through a full regulatory review process to 
revise the cost estimates, then relying on studies that were 
subjected to a less rigorous journal review process. So what we 
will do is try to get that information to you about concerns 
that have been expressed. We want to make sure a consequential 
scientific analysis is done.
    Ms. Mallory. Thank you.
    Ms. McCabe. We are here and listening. I don't think you 
will have any disagreement from us that any decisions such as 
this be based on sound science and well vetted studies that 
folks have an opportunity to see and weigh in on.
    Senator Lummis. Thank you very much.
    Mr. Chairman, I yield back.
    Senator Capito. Thank you. Senator Markey, by WebEx.
    Senator Markey. Thank you to both of our great panelists 
for being here, thank you for being willing to serve.
    As you both know, we are in a climate crisis right now and 
we need to move forward aggressively in order to deal with this 
crisis. I would like each of you, if you would, just to give me 
a sense of your commitment to ensuring that we unleash this 
clean energy revolution that can help to deal with the climate 
crisis.
    Ms. Mallory. Senator, I am happy to give you the commitment 
that I will carry out the responsibilities of CEQ if confirmed 
in a way that advances President Biden's agenda and in an 
aggressive way.
    Ms. McCabe. Senator Markey, this is Janet. We can't see 
you, so we are all sort of looking around the room.
    There you are. It is great to see you. You have my 
commitment as well, that if I am confirmed as deputy at EPA, I 
will work with the agency, with all the other agencies in the 
Federal Government, and with this body to address the serious 
issues of climate change across this Country.
    Senator Markey. Thank you so much. The workers at the EPA, 
they give up their lives, they dedicate their careers to 
helping protect the American public against the worst, most 
insidious dangers that are created by pollutants and other 
dangers to our society. These workers need to be protected. I 
know that it is something that absolutely has to be done.
    That is why I signed onto the EPA Workers Bill of Rights, 
to fight for scientific integrity and healthy working 
conditions. That includes the 8,000 members of the AFGE working 
at the EPA.
    So are you committed to ensuring that we create a safe 
working place for these workers? Ms. McCabe?
    Ms. McCabe. Yes, Senator Markey, it is the staff at EPA 
that bring environmental protection and public health 
protection to this Country. That is the main reason I am so 
honored to be considered for this position, is because my main 
job, as I understand it, would be to support the amazing work 
force. They need a safe environment, and they need support, 
they need respect. They need to be in the room and consulted, 
because they have expertise to bring to the table. The agency 
can't make good decisions without that work force.
    Senator Markey. Thank you.
    On the issue of environmental justice mapping, Senator 
Duckworth and I introduced legislation on this issue to make 
sure that we can actually see the full picture of what is 
happening in our Country, so that those communities that have 
always historically been most adversely impacted, Black, Brown, 
immigrant communities, are seen so that as we act we ensure 
that we are giving the protections to those communities.
    I would love to hear each of you speak about that issue, 
and the need to focus upon it over these next 4 years. I know 
that Senator Padilla has already raised it, but I would love to 
hear you expand a little bit more on this.
    Ms. Mallory. Sure. Thank you, Senator Markey. As we 
discussed in our conversation, the President has made 
environmental justice a central element of his agenda, and a 
central element of the work that CEQ will be doing. So I look 
forward to working with the staff and really with the rest of 
the Federal Government as we move forward on this issue.
    As I said to Senator Padilla, one of the issues that is 
already identified in the Executive Order that the President 
issued is the need to look at better tools to help understand 
where the communities are and where activities are most needed 
from the work that we are doing. So I also expect that to be 
part of the work that I would do at CEQ, if confirmed.
    Ms. McCabe. Senator, I will just add that ejscreen, EPA's 
screening tool, was developed when I was at EPA before. We 
heard Senator Padilla talk about the amazing system in 
California. I have actually been working with a colleague and 
some students at Indiana University on a review of about 17 
different environmental justice screening tools that different 
States or universities have developed. It is amazing to see the 
different approaches.
    So I think there is a lot to work from in terms of 
developing a tool that is usable and can be kept up to date and 
is really meaningful and will help everybody make good 
decisions about focusing on areas where the protections of the 
environmental laws may not have been realized over the history 
of the Country.
    Senator Markey. Without question, and Chelsea, 
Massachusetts is just a perfect example of where it is just the 
most densely populated city in New England, has high minority 
population, it is right next to the airport, the oil tankers, 
the idling diesel trucks. So they have the highest level of 
asthma, and also the highest level of coronavirus, both 
respiratory illnesses. So you can see how it all interacts 
together.
    So it is time for us as a Nation to ensure that 
environmental justice is made a priority.
    We thank both of you for your willingness to serve our 
Country. And I thank you, Madam Chair.
    Senator Carper.
    [Presiding.] Thank you, Senator Markey.
    I think Senator Cardin is next. I ran into him in the hall 
coming down here, and he asked me if anybody had raised any 
questions about the Chesapeake Bay. So that is like a pitch for 
a telegraph.
    Senator Cardin. Mr. Chairman, I was surprised to find out 
that the answer was no.
    Senator Carper. Senator Cardin.
    Senator Cardin. I rushed into the hearing room to make sure 
that we had the Chesapeake Bay properly protected.
    Let me first thank both of our nominees for your 
willingness to serve in these critically important positions. 
We know it is a challenge, any position in public life, but 
particularly when you are dealing with these issues. We thank 
you and your families for being willing to make this commitment 
to public service.
    So Chairman Carper has given me the perfect introduction, 
for Ms. McCabe first, the commitment toward the Chesapeake Bay. 
Every chance I have, I like to underscore the efforts that have 
been made on the Bay for over, now, 30 years, maybe 40 years. 
We started in the State legislature. It was really from the 
locals up, it was not a federally mandated program. It started 
with the local governments and other stakeholders, including 
our farmers, our developers, our local government units, coming 
together with a science-based approach to try to deal with the 
challenges of the Chesapeake Bay.
    It is not easy. It is a complicated body of water. It 
doesn't flush itself as frequently as other bodies of water. It 
is a national treasure, declared by numerous Administrations. 
And we have made a lot of progress. The water quality is 
certainly a lot better than it would have been without the 
efforts we have made. But we still have a lot of challenges to 
go.
    The first question I have is that, in a previous 
Administration, the Obama administration, we had a person 
designated for the Chesapeake Bay as the coordinator within 
EPA. We found that to be very helpful, because it really did 
help the seven States, the six States and D.C., in coordinating 
our efforts.
    Can you tell me, Ms. McCabe, your commitment if confirmed 
in working as a Federal partner in the Chesapeake Bay and 
putting a spotlight within EPA for those efforts?
    Ms. McCabe. Thank you, Senator Cardin. I really enjoyed 
talking about this with you the other day. These special 
places, these incredible places in our Country are where people 
live and work, and what animates them to make things better. In 
my neck of the woods, it is the Great Lakes. And it is the same 
thing: you need everybody from the bottom up and the top down 
around these incredible resources to be working together.
    I know you talked with Secretary Regan about the idea of 
how to focus attention on the Chesapeake Bay at EPA. Certainly 
if I am confirmed and able to work with him, we will do what we 
can to work with your office and make sure that the agency is 
focusing the right resources on this special area.
    Senator Cardin. I thank you for that.
    Ms. Mallory, I want to talk a little bit about a subject, I 
hope I don't get you into any trouble in this nomination 
hearing, but about NEPA and the regulatory process. I say that 
because we all want to streamline the process. We want it to 
move as quickly as it can.
    But there is a real purpose for the review process, 
including look at the social impact on communities, the impact 
of emissions as it affects climate change, which is one of our 
greatest challenges in the Chesapeake Bay, is the sea level 
rise, an issue dealing with the warming in the bay.
    Can you tell me your commitment to use the process to make 
sure that there is social justice, environmental justice, and 
that communities' views are in fact, that they have an 
opportunity to be heard in the review process?
    Ms. Mallory. Thank you, Senator Cardin. I appreciate the 
question. I know we talked about this a bit when we met as 
well.
    What I can tell you is that I view the challenge of finding 
a way to ensure that NEPA is serving its multiple purposes, and 
in a way that allows the President's full agenda to be met as 
the challenge that we face. It not only has to create an 
opportunity for there to be a full, robust analysis of the 
impacts on major projects. It has to create an opportunity for 
there to be a way for citizens and the community to engage. But 
it also has to be done in a way that ensures that we have 
significant infrastructure projects, and that economic 
recovery, which is based on those projects, can occur.
    I think that is our challenge. I think that is what I see 
myself, if I am confirmed, trying to search for the 
opportunities that allow those things to occur at once.
    Senator Cardin. I just really want to underscore President 
Biden's program of Building Back Better. We talk about building 
back better, it seems to me that the process that we use is 
critically important to make sure at the end of the day we have 
an America that is resilient, that adapts to the realities of 
where we are, and is contributing to the environmental justice, 
not only the local community, but the global community. It 
seems to me that CEQ plays a critical part in making sure we 
build back better.
    Ms. Mallory. I couldn't agree with you more.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Cardin.
    I understand we have been joined by Senator Sullivan. 
Colonel, are you there?
    Senator Sullivan. Captain, I am here, sir.
    Senator Carper. Navy recognizes Marine Corps. Go ahead.
    Senator Sullivan. Thank you very much, Captain.
    Ms. Mallory, Ms. McCabe, thanks, and thanks for your 
willingness to serve. I appreciated the opportunity to meet 
with both of you.
    So let me just get a commitment, if confirmed, can I get 
you up to Alaska soon, in the first year of your tenure? There 
are a whole host of issues that are impacting my State right 
now. I am going to go into them. But it is not like being on 
the ground in the largest State in the Country with very unique 
challenges.
    Can I get that commitment from both of you, if confirmed?
    Ms. Mallory. Yes, Senator, I would make that commitment to 
go to Alaska. We did talk about a number of the unique issues 
that Alaska faces. To have an opportunity to see that, I would 
appreciate it.
    Senator Sullivan. Great.
    Ms. McCabe. Likewise for me, Senator. I have had the 
pleasure to be there once before, and would gladly go again.
    Senator Sullivan. Good. And it can be in the summer. I was 
back in Fairbanks last weekend, and it was about 38 below zero. 
So it doesn't have to be in winter, but maybe it is good to see 
it at 38 below zero, too, there are a lot of unique elements to 
living in communities like that, great people, tough people. 
But it would be great to have you up there.
    Let me go into a couple of issues. I talked to both of you 
about the balance on the environment and other things, like 
jobs. I also want to talk about environmental justice, maybe 
not from the perspective that it is always talked about.
    But on jobs, we are in a recession. My State is in a really 
hard, difficult economic challenge with regard to the pandemic. 
Yet the Biden Administration in its first 6 weeks has launched 
seven executive orders that have either focused directly or 
indirectly on my State. Seven. There is no State that is 
getting love from the Biden Administration like mine. We don't 
view it as love. We view it as a war on working families and 
jobs in Alaska. It is incredibly concerning.
    I guarantee you, Delaware, no other State in the Country 
gets seven, really eight if you consider the latest Biden-
Trudeau joint statement which focused on ANWR, to really attack 
my State and working families and jobs. Can I get you to just 
briefly explain how you balance environmental protection, which 
we in Alaska care more about, trust me, Alaskans care more 
about protecting our environment than anybody in EPA or CEQ, 
Democrat or Republican Administration.
    How do you balance the challenge? Right now, there are 
projects almost daily in my State where people are losing jobs. 
Good jobs, yes, oil and gas jobs. They are relevant by the way, 
Mr. Chairman. And very important in America. Yet they are under 
assault. Help me with this. My State is reeling. And the new 
Federal Government Administration, seven EOs attacking Alaska. 
There is nothing like it, and we are not enjoying it.
    Ms. Mallory. Thank you, Senator. I appreciate that 
question.
    You are hitting on, I think, the major challenge that we 
see as an Administration, in trying to address the climate 
crisis and prepare ourselves for a future that allows all of 
us, and all communities, to live better and to live in ways 
that don't have the extreme impact----
    Senator Sullivan. Ms. Mallory, I am going to interrupt 
here. Sorry, I don't want to be rude. But you know, even our 
Country has reduced greenhouse gas emissions in the last 15 
years from 2005 to 2017 by almost 15 percent. More than any 
major country in the world by far. It is not even close, China 
is doubling theirs, we are reducing it. Almost all that is due 
to the revolution in natural gas, with good jobs.
    Right now, all we are seeing from the White House is, we 
are going to restrict production of energy, kill the jobs, and 
the result is, no good jobs and importing more gas from Russia, 
oil from Saudi Arabia. None of this makes sense. You don't kill 
American jobs in energy production to address the climate 
crisis when natural gas is actually helping globally, no doubt, 
with the reduction of greenhouse gas emissions.
    Again, how do you square this? Because I keep asking the 
question about jobs, and I get, well, we have to sacrifice 
jobs, well, we are going to make, John Kerry, we are going to 
help people make good choices in their jobs. That condescending 
attitude really, really ticks me off, and it really insults the 
people I represent.
    Ms. Mallory. As I was saying, Senator, I think the 
importance of jobs as part of the clean energy economy that we 
are aiming to build, I think, is central. We understand that 
people are suffering now, and I think, I know personally, I 
understand what that means when people are suffering because of 
the loss of their jobs. Our goal is to get to a place where we 
can have an economy on which we can all plan for a future that 
recognizes the climate impacts that we are experiencing.
    Senator Sullivan. Does that mean States like Alaska that 
produce energy have to sacrifice jobs?
    Ms. Mallory. I think it means for States like Alaska that 
there is a unique transition that has to occur there, and that 
we have to work more closely with you in figuring out how to do 
that in a way that protects people. That is the goal.
    Senator Sullivan. Let me ask a really important question. 
My understanding in a recent meeting with the President of the 
United States, and he was fully endorsing natural gas as a 
transition fuel. The President. John Kerry said he doesn't. I 
think the White House needs to figure out who is speaking for 
whom on energy policy. I think it would be the President.
    Do you two support natural gas, robust production of 
natural gas and natural gas jobs as an important transition 
fuel? The President of the United States does.
    Ms. Mallory. I think gas is a part of the transition, for 
sure.
    Ms. McCabe. Senator, I would agree. I think the President 
has made clear that we need a wide variety of fuel sources to 
move us forward toward a cleaner energy. The point is getting 
carbon out of the air, Senator, regardless of the fuel source. 
Getting carbon out of the air, that is what is fueling climate 
change.
    Senator Sullivan. I am going to show you this map. I think 
I have shown it to both of you, and hopefully you can see it. 
Can you see this map?
    Ms. Mallory. Yes.
    Ms. McCabe. Yes.
    Senator Sullivan. OK. So this is an AMA study. Mr. 
Chairman, I am having a hard time seeing my time, so I am 
probably almost up here. You can cut me off whenever you need 
to.
    That is an American Medical Association study from 1980 to 
2014. It shows where Americans increased their life expectancy. 
The blue and the purple are the dramatic increases.
    There are a couple of places in America, mostly yellow and 
red, unfortunately, where the life expectancy of Americans 
decreased. My State had the biggest increase by far of anybody, 
up to 13 years. There is no better policy prescription than, 
are your constituents living longer because of policies.
    There is a lot of talk about environmental justice. These 
are mostly Alaska Native communities, where the increase in 
life expectancy was huge, 10 years or more in some communities. 
The reason there was such an increase in life expectancy is 
because there was significant resource development 
opportunities, where these communities now have running water 
and gymnasiums and clinics, those things that Americans take 
for granted.
    This happened because of resource development happened, oil 
and gas, mining. And my constituents are very nervous, not 
about jobs, but literally about whether they are going to live 
longer if you have an Administration that is going to target 
these kinds of job opportunities and income.
    So this is environmental justice in a huge way. Are the 
people you representing in minority communities living longer? 
The answer is yes, because of responsible resource development. 
What we are scared about right now is that, with these 
targeting EOs against Alaska that this trend might be reversed. 
Can you talk to me about environmental justice----
    Senator Carper. Senator Sullivan, you are almost 3 minutes 
over your time.
    Senator Sullivan. I am sorry, Mr. Chairman. I will submit 
this for the record.
    Senator Carper. If you could do that, that would be great.
    Senators, I don't believe you have had an opportunity to 
ask a question. Let me see if Senator Whitehouse is with us. 
Senator Whitehouse?
    Senator Whitehouse. Yes, I am. Here I come on video as 
well.
    Thank you, Chairman.
    Senator Carper. There you are, good. Welcome.
    Senator Whitehouse. First of all, congratulations to both 
of you. I look forward to working with you to solve the urgent 
climate crisis that faces Rhode Island and the rest of the 
planet.
    As you know, under present projections, if we don't get our 
arms around this, we are going to have to redraw the map of 
Rhode Island, because our coastline is going to change 
dramatically. We are going to lose enormous amounts of coastal 
property, and coastal livelihoods, to all of this. It is a big 
enough deal that even Freddie Mac is warning about a coastal 
property value crash that cascades through the rest of the 
economy, a little bit like the 2008 mortgage meltdown.
    So this to coastal States like mine is deadly serious. I 
wanted to ask first, Ms. Mallory, the social cost of carbon has 
just been revived by the Biden Administration, which I am very 
happy about. I think CEQ is probably going to oversee updating 
the number. We went back to the last established number, which 
I am glad we did. But we also need to make sure that the number 
is the most accurate number.
    We also need to make sure that the social cost of carbon 
figures into as many administrative decisions and calculations 
as possible. Could you comment on where you intend to go at CEQ 
with the social cost of carbon?
    Ms. Mallory. Sure, Senator, thank you for that question. As 
you know, since I am outside of the Administration at this 
point, I haven't been engaged in any of the conversations about 
the social cost of carbon or the action that the Administration 
took last week. Under the executive Order that was issued 
several weeks ago, it identifies CEQ as a participant on the 
work group for the social cost of carbon, but the leads are in 
other organizations, OMB and I think the Council on Economic 
Advisors.
    But we fully expect to participate in the work group as we 
look at the issues. Among the issues that were laid out last 
week and what the White House released was an indication that 
part of the analysis will consider what types of actions should 
be, where the social cost of carbon should be used.
    So I think the question you are raising about the scope of 
the social cost of carbon is one that will be front and center 
in the work group activities that will go forward in the year. 
I do expect CEQ to be a part of that.
    Senator Whitehouse. Let's talk about oceans and coasts for 
a minute as well. The impact of climate change is obviously 
very strong in oceans. The chemistry is changing. They are 
acidifying, they are warming, it is multi-Hiroshima atom bomb 
equivalent of heat energy being added per second to the oceans 
per second, sea levels resultantly rising, fish populations 
moving around. As one Rhode Island fisherman said to me, things 
are getting weird out there, Sheldon. This is not my father's 
ocean.
    Regrettably, I think we pay very little attention to that, 
even in the environmental community, because we are terrestrial 
beings. But the dangers of the oceans, if currents shift, or if 
we lose massive fisheries, or can no longer support coral 
reefs, are going to be immense. I hope I will have your 
commitment to look hard at these oceans and coasts questions, 
to take a particular look at the flood insurance program along 
the coasts. NFIP is up for renewal this year. At the moment, we 
have just been kicking the ball down the road, paying no 
attention to real reform.
    We also have, and Dan Sullivan and I have done a lot of 
good work together, we also have the critical ocean plastics 
problem that the U.S. can play a big role in fixing. We are 
headed for a world of more plastic in the oceans than living 
fish in the oceans. That is not something that I think we 
should leave to our grandchildren.
    So could you comment on the role of oceans at CEQ?
    Ms. Mallory. Yes, absolutely, Senator. Oceans have been, at 
least in my knowledge of CEQ, have been a part of the agenda 
for some time. We fully expect it to be a part of the agenda 
this time if I am confirmed.
    Oceans is an area that we have partnered with the OSTP, the 
Office of Science and Technology Policy, around those issues in 
particular because of all the changes that you were describing 
in your opening in terms of figuring out what is the path 
forward. I fully expect to participate in that process.
    Senator Whitehouse. Chairman, do I have any time left on 
the clock?
    Senator Carper. You are a few seconds over. If you have a 
short question, go ahead.
    Senator Whitehouse. Ms. McCabe, methane. How much do know 
about methane leakage, how much do we need to know, and what 
are you going to do?
    Ms. McCabe. Thanks, Senator. This is an issue where there 
has been continuing research on understanding the levels of 
methane, where it is coming from and what we can do to reduce 
it. Methane is a very powerful climate forcing pollutant.
    So I look forward, if confirmed, to working with the 
scientists at EPA and everywhere to understand this issue as 
well as we can. If we don't know what is out there, it is very 
hard to have sound policy around it.
    Senator Whitehouse. Thanks, Chairman. I would just point 
out that if you don't know what your methane load is, your 
methane leakage load, it is hard to assess how good natural gas 
is as a climate alternative. Thanks very much.
    Senator Carper. Senator Whitehouse, thanks very much for 
joining us. Senator Ernst, you are next.
    Senator Ernst. Thank you, Mr. Chair. I appreciate it.
    Ladies, thank you so much for being here today. I really do 
appreciate the opportunity to sit down with you face to face 
and ask a few questions.
    For both of you, please, in a February interview, White 
House National Climate Advisor Gina McCarthy had stated, ``We 
have to get the middle of the Country understanding and active 
on climate. We have to show them what resilience looks like.'' 
Would you both agree with this statement and why or why not?
    Ms. McCabe. Since I come from the middle of the Country, 
maybe I can go first. I work at an organization set up by 
Indiana University called the Environmental Resilience 
Institute. Folks in the Midwest are very aware of what is going 
on in their environment, and very eager to work across their 
States to come up with approaches that will allow them to be 
more resilient in the face of environmental challenges.
    Senator Ernst. Ms. Mallory?
    Ms. Mallory. Senator, I don't know the context of that 
statement, but what I do know is that we see the impacts that 
are affecting different areas of the Country very differently. 
I think it is important for us to understand what those 
differences are, and what the tools are that are available for 
us to address it.
    So I think it is an important part of understanding the 
climate impacts that we are experiencing if we are going to 
figure out ways to address them.
    Senator Ernst. Certainly, I would agree. Thank you, Ms. 
McCabe, as well. I know that we had such a great discussion 
about solutions from the land, and so forth. I just want to 
emphasize that what the climate advisor is stating when she 
addresses the middle of the Country I would want to point out 
to her, and I hope in your capacity, if confirmed, you would be 
able to communicate that we are concerned about resilience in 
the Midwest and across the middle of the Country.
    Right now, in Iowa, wind energy provides 40 percent or 
better of our electric, more than any other State. We didn't 
have to have any big mandates coming from the Federal 
Government to do that. It is something that we are driven to do 
in the Midwest. There weren't any job-killing mandates, no 
additional taxes, no fees. It was all very incentive-driven by 
the people in Iowa and the companies that supported those 
programs.
    The latest data from a Harvard study also shows that first 
generation ethanol, Iowa is the No. 1 producer of ethanol, 
reduces emissions by 46 percent and biodiesel produced from soy 
is 66 percent to 72 percent less carbon-intensive than 
petroleum diesel and biodiesel from other types of feedstocks.
    So this was an affront. Many of us across middle America 
have taken this as just another example from Ms. McCarthy as a 
``we know best'' attitude that is pretty common amongst our 
coastal elite counterparts. I think that Iowa has set a very, 
very good standard for others to follow. I hope that if given 
the opportunity, you will visit us in middle America, and see 
some of the wonderful things that we are doing in the space of 
green energy.
    Again, it is not driven by big Federal mandates. It is 
because we believe in what we do, and we as Midwesterners have 
resilience.
    I want to talk about permitting as well. Ms. Mallory, 
permitting. As you know, on January 21st, President Biden 
revoked President Trump's August 2017 Executive Order that 
created the One Federal Decision policy, which requires 
agencies to process as one Federal decision environmental 
reviews and authorization decisions for major infrastructure 
projects. Infrastructure is going to be a hot topic for a 
number of years. And to complete the NEPA process within an 
average of 2 years.
    Do you agree with President Biden's decision, why or why 
not?
    Ms. Mallory. I would say that that Executive Order revoked 
that Executive Order, but also told CEQ and OMB to look at that 
policy, to see whether or not it should be revised or 
reinstated. So I don't think the issue is off the table. In 
fact, I also believe that the elements of the One Decision 
policy are integrated into the 2020 regulation itself.
    So the issue has not gone away. The question is, is there a 
way for us to address the approach to permitting in a way that 
also responds to the other values that we are going after, 
making sure that you have good data, making sure that 
communities are participating, making sure that we can do it in 
a way that ensures that we get our projects done in a timely 
manner.
    Senator Ernst. Thank you. I do believe we need to find ways 
to speed along the permitting process, of course, taking into 
account our values. But certainly, infrastructure will continue 
to be a very important topic for us to discuss, especially 
right here in this committee.
    Thank you, Mr. Chair, very much. Thank you, ladies, for 
being here today. I appreciate it.
    Senator Carper. Senator Ernst, thank you so much for 
joining us and for your questions.
    Ms. McCabe, how far away is Indianapolis away from Iowa?
    Ms. McCabe. From Iowa? It is pretty close.
    Senator Carper. How close?
    Ms. McCabe. You sort of go halfway across Indiana, then you 
do Illinois, and then you are there.
    Senator Carper. Have you ever been there?
    Ms. McCabe. To Iowa, I am sure that I have been to Iowa.
    Senator Carper. All right. You may want to go again.
    Senator Cramer, you are next. Senator Capito and I are 
going to yield to you and if no one else shows up, then we will 
wrap it up.
    Senator Cramer. All right, thank you very much.
    Since Senator Ernst raised the issue of Ms. McCarthy's 
comment about resiliency and the ignorance of the Midwest, I am 
going to tag onto that a little bit. I am not going to brag so 
much about all the wind that we have in North Dakota; we do 
have a lot of it.
    But I would say this. Winter is an annual event, it is not 
a vortex. We don't shut the lights off because it is cold. We 
crank up the coal and the gas to make sure that people stay 
warm. We don't shift the gas away from manufacturing or heating 
homes to go over here to a peaking station. We have been 
talking about the resiliency of the grid for decades before it 
was the cool thing to do.
    So we really, I would just say to you, Ms. McCabe, I am all 
about second and third and fourth chances. I am grateful for 
all of them that I got. You have a steeper hill to climb, 
frankly, than most. Largely because in 2014, you stood, you sat 
before this same committee and promised federalism. You did it 
again today, promised federalism, considering the States, 
listening to the States.
    Yet the Clean Power Plan proved to be one of the most 
overbearing big government impositions on States ever, which is 
why 26 States successfully litigated it, including mine.
    One of the biggest problems, and this is why you have a lot 
to answer for, frankly, with regard to what you call your 
proudest accomplishment. The proposed rule, the Clean Power 
Plan, required North Dakota to cut its CO2 emissions by 11 
percent. Now, reasonable, nice Midwesterners say, 11 percent, 
don't like it, I don't like the prescription. That is another 
whole factor. But we could probably do 11 percent.
    Then of course, the final rule comes out, and since 
everybody just said, well, 11 percent, let's play along, let's 
do our part, rather than stand against this thing. It was 45 
percent. Forty-five percent, just dropped on a State like North 
Dakota, that either way is one of the handful or so of States 
that meet all ambient air quality stands as prescribed by the 
EPA. We are very proud of that. We love our air. We love our 
land. We rely on all of that.
    So, and I have been pushing Mr. Regan really hard on this. 
I voted for him out of this committee, with an understanding 
that he is going to keep an open mind and he is going to talk 
to the people of North Dakota, and that he is going to be 
sincere about it. And he seems to be. Your history with us 
makes it a lot more difficult.
    So, that lack of transparency and stakeholder interaction, 
particularly with middle America, is a tough one for us to get 
over. For me to vote for you, I would have to explain myself 
pretty clearly to North Dakotans. So I am going to give you the 
moment for a couple of minutes to tell North Dakotans why we 
ought to give you another chance at this.
    Ms. McCabe. Senator, I really thank you for being so candid 
with me. I am sorry we didn't have a chance to chat before the 
hearing. I hope we will have a chance to chat afterwards. I 
would love to do that.
    I understand your position and what you are saying. I have 
to tell you that when I was working at EPA before, I was 
absolutely sincere in my commitment to involve everybody. I 
know that there are many who disagree with the outcome of that 
rule.
    But in terms of listening to people and hearing people and 
taking everybody's perspective into account, we certainly did 
that in the lengthy process that we went through on the Clean 
Power Plan. The final rule, as I said a minute ago, the rule 
was about carbon emissions. My State is also a State with a lot 
of fossil energy. It had a large reduction expectation as well.
    But what we tried to do in that rule was build a very 
flexible approach. We talked for hour and hours with State 
officials about how to do this in a way to provide flexibility 
so that the goal of the rule, which was to reduce carbon 
emissions, could be done in the most flexible way, giving 
States as many options as possible to work together, to work 
internally, to work with other States all across the Country to 
make that happen.
    I think we have had success in this Country with programs 
like the Acid Rain Program, in allowing flexible approaches to 
do these things affordably.
    Senator Cramer. I would submit to you that you have had 
success in lots of areas, NOX, SOX, mercury, particulate 
matter, because you worked with States and stakeholders and the 
innovators that actually do the production of the energy met 
those. But when you pull a bait and switch from 11 percent to 
45 percent, it is hard to, whether you go outside the fence 
line, or whether you stay inside the fence line, these are 
important matters, as you know. It is why the litigation was 
successful.
    I appreciate your answer. Don't worry, I will always be 
candid. But I will always do it with a smile. I appreciate it. 
Thank you. I yield my time.
    Senator Carper. When he is not smiling, you know you have a 
problem.
    I think next up, joining us by WebEx, is Senator Lummis. 
Senator Lummis, are you there?
    Senator Lummis. Thank you so much, Mr. Chairman. I am in 
between hearings, so I am going to be quick.
    First of all, I really want to thank both Ms. McCabe and 
Ms. Mallory for spending time with me before the hearing. We 
are dealing with some of the same tough problems that the 
Senator from North Dakota just mentioned.
    I would tell you with regard to refineries specifically, I 
live right next door in Cheyenne, Wyoming, to the HollyFrontier 
Refinery, which just because of the small refiners exemption 
and the inability to get that exemption, we lost 200 jobs 
because that oil refinery is being converted into a soybean 
refinery. The 260 jobs that were there are now 60 jobs. Those 
people were moved elsewhere in the Country.
    So it was a tremendous blow to us. These things are 
happening as a consequence, a direct consequence, a singular 
consequence, of Federal regulation.
    So my question for Ms. McCabe is, in the wake of these 
refinery closures and downsizing, and the resulting increases 
in imported fuels, how will you ensure that EPA policy doesn't 
weaken energy security by increasing dependence on imported 
fuels?
    Ms. McCabe. Thank you, Senator. Certainly, energy security, 
energy independence, and affordable energy are critical 
priorities for this Country and for this Administration. So if 
I am confirmed, and to the extent that my duties involve me in 
these kinds of questions, I will have that very, very much in 
mind.
    Senator Lummis. The jobs issues for our States, as you have 
heard from Senator Sullivan and Senator Cramer and others, it 
is hugely consequential. You can say in theory that jobs will 
not be lost or people will be retrained or energy that is non-
emitting will replace the jobs of emitters. But in fact, it 
just hasn't happened that way.
    So it is important that we protect jobs at the same time 
that we are protecting the environment and making environmental 
improvements. We want that. As Senator Sullivan says, nobody 
cares more about the environment in their State than the people 
who live there. That is true in Wyoming, too, and we are very 
proud of our environmental record.
    But we are very concerned about approaches that set targets 
that just cost jobs and don't improve the environment. I want 
to work with you on these issues, believe me, I do. It matters 
so much to our State.
    Thank you for your time. Thank you for your willingness to 
step up.
    Mr. Chairman, thank you for the time today as well. I yield 
back.
    Senator Carper. Senator Lummis, thanks so much.
    I think Senator Kelly may be out there somewhere. Senator 
Kelly, can you hear us?
    Senator Kelly. Yes, Mr. Chairman. Thanks for holding this 
important hearing. And thank you to Ms. McCabe and Ms. Mallory 
for joining us today, and for your willingness to serve in 
these roles. Both of these positions to which you are nominated 
are very consequential to the State of Arizona and for our 
Country.
    So let me just jump in with a question here. I want to 
start with Ms. Mallory.
    Ms. Mallory, the Council on Environmental Quality is 
essentially the compliance officer for every environmental 
impact statement issued by a Federal agency under the NEPA 
process, the National Environmental Policy Act.
    Arizona is one of the top mining producers in the world. To 
get to a carbon free future, we need to have copper, lithium, 
nickel, cobalt and other strategic minerals to build solar 
panels and to build electric vehicles and high capacity, high 
density batteries. The World Bank estimates that 3 billion tons 
of minerals are needed for green technology worldwide to 
accomplish this. And I fully support the NEPA processes that 
are out there.
    But the average time it takes to permit a mine in the U.S. 
is about 10 years, in part because of the lengthy and complex 
Federal permitting and EIS review process. We need strong 
environmental reviews.
    But is there a way that you know of, is there a way to 
increase the speed and accuracy of environmental impact 
statements for mines that produce critical minerals without 
compromising the integrity of NEPA?
    Ms. Mallory. Thank you, Senator. As I was saying earlier, I 
think that in some ways, that is the challenge that CEQ is 
facing right now for a number of activities. Infrastructure is 
the topic we were discussing before.
    I think the issue is, as you have emphasized, we need to 
make sure that we are not making changes to our process, a 
process that has been in place for over 50 years, that 
undermine what the goal is. At a time when the environmental 
impacts that we are facing from climate change and other things 
are so grave, we don't want to lose the value that the NEPA 
process can bring to our decisionmaking.
    But we also need to figure out ways that will allow us to 
make these important decisions in a timely way. So that is the 
charge that I believe is central to the role that I would play 
at CEQ if confirmed.
    Senator Kelly. Thank you.
    I think I have a couple more minutes. Let me address the 
next question to Ms. McCabe. Luke Air Force Base last week, it 
is in the west valley of Phoenix, announced recently that 
recent tests of the drinking water near the base tested 
positive for high levels of dissolved PFAS, PFOA and PFAS, in 
excess of the EPA's lifetime health advisory for drinking 
water. That has prompted the Air Force and the Arizona 
Department of Environmental Quality to urge more than 1,600 
homes, 1,600 of them, and neighboring businesses, to avoid 
drinking tap water. The Air Force has begun, as they should, 
distributing bottled water to affected Arizonans.
    PFAS contamination is not just an issue in the west valley. 
To date, more than a dozen water systems across Arizona have 
found high levels of harmful PFAS chemicals. Yet, as you know, 
the EPA has not designated PFAS chemicals as hazardous 
substances.
    So if confirmed, what steps do you believe the EPA could 
take to help protect Arizona communities, especially those near 
our Air Force installations and airports from PFAS 
contamination?
    Ms. McCabe. Thank you, Senator.
    This is an issue that is affecting the entire Country. I 
know that areas around military bases are often finding these 
contaminants in a way that is really concerning.
    My understanding, and Senator, these areas are not my 
historical areas of expertise. But I know that there are a 
number of different approaches that are within the 
environmental statutes, environmental authority of EPA, to be 
looking at this chemical. Steps are already being taken by this 
Administration to move forward on those.
    If I am confirmed and if Secretary Regan asks me to help 
work on these issues, I certainly will be working with your 
office, other Members of Congress and all stakeholders to move 
these issues forward in appropriate legal mechanisms to bring 
protection to the drinking water of this Country.
    Senator Kelly. Thank you for that. I look forward to 
working with you as well, Ms. McCabe.
    Mr. Chairman, apologies for taking a little extra time 
here.
    Senator Carper. No apology necessary. Thank you, Senator 
Kelly.
    As it turns out, Senator Kelly, our Ranking Member and 
yours truly have a keen interest in PFAS groundwater pollution, 
both in West Virginia and in Delaware. We are told about 300 
communities across the Country where this is a real problem for 
families. We are anxious to get going on it.
    All right, Senator Wicker was here. Here he is. Senator 
Wicker is here.
    Senator Wicker. Thank you, Mr. Chairman.
    Mr. Chairman, I would note Senator Kelly is a junior, brand 
new Senator, otherwise he would not have felt he should 
apologize for taking an extra 25 seconds.
    Senator Carper. That is probably the first and only time we 
will hear that apology.
    [Laughter.]
    Senator Wicker. I think he made a great point. There are 
minerals in his State of Arizona and all over the United States 
that are vital to manufacturing clean technology. Yet they have 
to be mined, and somehow the mining regulations need to be 
loosened up a little so that these essential minerals can be 
utilized to make the environment better. Good point there from 
Senator Kelly.
    Let me ask you this, Ms. Mallory. Do you agree that wood is 
a cost-effective, energy-efficient and sustainable solution for 
building construction?
    Ms. Mallory. Senator, I feel like there is a technical 
aspect to that question that I am not sure I understand. I 
believe that wood is an important ingredient. I don't know if I 
would go so far as to say it is cost-effective and whatever the 
last words were.
    Senator Wicker. OK, that is a bit telling right there. Let 
me just say that it is compared, I believe that it is, and I 
believe most Americans do. Also as compared to other building 
materials, wood products are derived from a renewable resource 
and are responsible for less air pollution and less water 
pollution.
    That brings me to an act by the EPA back in 2015, where 
they issued an interim regulation for Federal procurement of 
wood products based on the Council on Environmental Quality 
implementing instructions. The recommendations, which happily 
have been overturned, would have resulted in potential 
exclusion of wood products from over 95 percent of U.S. 
timberlands, including more than 80 million acres of certified 
U.S. forests in Federal procurement projects.
    We were able, in the 2018 Farm Bill, to include a provision 
which prohibits procuring agencies from establishing 
regulations against procurement of such excellent sources of 
construction as bio-based products.
    Let me just ask you, are you aware that there are a lot of 
alliances of wood-growing entities around the Country that are 
concerned that the new Administration could work around this 
solution in the Farm Bill and implement regulations similar to 
the one we had in 2015, which basically disadvantages 
disadvantaged forest resources in almost all of the 50 States?
    Ms. Mallory. Senator, I am not really aware of the alliance 
that you are speaking of, but I would be happy to learn more, 
if confirmed. I understand that biomass and bio ingredients are 
an issue that is getting, and should get, more attention in 
terms of figuring out what our climate solutions are. And I am 
happy to be part of that.
    Senator Wicker. I appreciate that assurance. Let me just 
say that the resistance to what was attempted in 2015 was 
bipartisan and it covered almost every geographical area of the 
United States, from the southeast where I live up to New 
England and other areas.
    Briefly, Ms. McCabe, there was a feeling back in the Obama 
administration when developing the Clean Power Plan that there 
was a Washington, DC. decision forced on the States, and we 
didn't have a practice of cooperative federalism then. Do you 
agree that by working with State environmental agencies, we can 
oftentimes result in the same efficiencies and the same clear 
result by listening to local and State regulators at the same 
time?
    Ms. McCabe. Senator, I totally agree that EPA has to do its 
work in partnership and cooperation with State and local 
agencies.
    Senator Wicker. Thank you very much.
    Mr. Chairman, I am delighted to yield back 24 seconds.
    [Laughter.]
    Senator Carper. It is a record.
    All right. I thank you for those questions.
    I do have some followup questions of my own, but I will 
save them until the end.
    Senator Capito, please.
    Senator Capito. Thank you, thank you both. We are closing 
in on it here.
    I wanted to get this question on the record to you, Ms. 
Mallory, because it is an issue that is important to all of us. 
Certainly, the deployment of broadband in this Country is 
woefully behind, and in this pandemic we see how much that is 
affecting students, health care, ability to telecommute and all 
kinds of things.
    There is a working group at the FCC, the Broadband 
Deployment Advisory Committee, that is recommending that 
agencies finalize categorical exclusions that exempt broadband 
projects from the NEPA process. As a matter of fact, in 2010, 
the Obama administration's CEQ noted that ``Appropriate 
reliance on categorical exclusions provides a reasonable, 
proportionate, and effective analysis for many proposed 
actions, helping agencies reduce their paperwork.''
    So we need to deploy this as quickly as possible. I guess 
what I am asking you, would you look at this issue of 
categorical exclusions that I think, as we have pumped a lot of 
money into broadband deployment. But if we get it hung up into 
all kinds of permitting, we are going to end up elongating it 
and making those projects more expensive.
    So I would just like to have your opinion on this, or at 
least some assurances that this is something you will take up.
    Ms. Mallory. Thank you, Senator, absolutely. If I am 
confirmed, I would look into and be brief on the issue of 
broadband categorical exclusions.
    Senator Capito. Thank you.
    I want to talk about environmental justice. I know that Ms. 
McCabe and I talked about it on our Zoom, I am not sure that we 
did. It has been touched on, and you can see, with the job loss 
issues. As I think of environmental justice and understanding 
that it is somebody living next to a polluted area, can't move, 
they don't have the wherewithal or the money to be able to 
change that or clean it up or all those kinds of things.
    But I also think with joblessness comes an expanded 
environmental hazard, when you have people who have depression 
or opioid addictions or joblessness or hopelessness, you end 
up, the environment surrounding those types of folks, those 
folks, those homes and those communities I think can be just as 
damaging to our environment in some ways as maybe a factory or 
a power plant or some other kind of, well, you can directly say 
that is an environmental hazard.
    I guess what I am asking is, do you agree with what I am 
saying in terms of the joblessness issue? Does environmental 
justice encompass those kinds of concepts that I am putting 
forward? Help me understand your perspective on that. We will 
start with you, Ms. McCabe.
    Ms. McCabe. Thank you, Senator.
    Any job loss is a terrible thing. I agree with you that we 
have communities across this Country that are suffering 
greatly. The pandemic is just making it worse. You have my 
total agreement there.
    I think we need to pay attention to all of these issues. I 
think that President Biden has reflected, in his Executive 
Orders, that paying attention to communities that are affected 
by the transition to a climate, a more climate safe world, 
those impacts are real. The government needs to be paying 
attention to those.
    So I do agree with you that we have to pay attention to 
these issues.
    Senator Capito. Ms. Mallory.
    Ms. Mallory. Thank you, Senator Capito. I guess what I 
would say is I definitely agree that those are problems that 
need attention, and that we are prioritizing in terms of 
thinking about the broader agenda. Whether they always fall 
under a category of environmental justice, I am not sure. But 
it doesn't matter, because I think they are priorities that we 
need to figure out ways to address.
    Senator Capito. Well, in this it does matter. Because there 
is a great emphasis in this Administration on environmental 
justice and equity. That is a lot of the words that are used. 
As a matter of fact, this COVID bill has, for some reason, some 
money in there for environmental justice. I don't agree with it 
being exactly COVID related, but that is a whole different 
topic.
    So I think it does mater, because we are going to put a lot 
of resources into this, meaning Federal dollars. I know there 
have been some promises in some of the Executive Orders that 40 
percent of whatever the benefits would be from green energy is 
going to go back into the communities. But you can hear the 
skepticism of the States that have been impacted before. Some 
of us kind of feel like it is sort of a little pat on the head, 
and you are going to be OK.
    I am glad to hear you talk about transitions, because we 
didn't really have a transition, I didn't think, under the 
Obama administration. We lost thousands of jobs, and really 
shuttered a lot of our communities.
    Last question is, you have Gina McCarthy as the climate 
czar, and John Kerry as another climate czar. Then Ms. Mallory 
at CEQ, and then you and Michael Regan at EPA. How does this 
all fit together? Who is the lead here? I don't know if you 
have had these discussions with Gina McCarthy or the President 
himself as to who is going to be the lead on environmental 
policies and whose voices should we be listening to? Will it be 
one coordinated voice? But who is going to be the one who is 
going to be the spokesperson, I guess is my question.
    I asked Michael Regan the same thing. If you have a quick 
response, or I could add that to a written question. Ms. 
Mallory?
    Ms. Mallory. The way that I see the issue is that there is 
a coordination activity that is occurring around climate change 
that the new White House positions are helping to orchestrate 
with every agency and every other part of the Administration 
kind of bringing to bear the expertise that their organizations 
offer.
    So CEQ will be working around these issues in partnership 
with Gina and others and the White House that are designed to 
actually have us all end up with the President's agenda being 
met.
    Senator Capito. Ms. McCabe.
    Ms. McCabe. Well, I haven't had any conversations with Gina 
or anybody else, other than Secretary Regan. He made clear to 
you that he will be making the decisions at EPA, accountable to 
the President and carrying out EPA's responsibilities. And that 
will be my experience as well, if confirmed.
    Senator Capito. Yes, I think that is what we would like to 
see. I mean, certainly from my perspective, because I think the 
more transparency we have, more accountability, we can ask the 
right questions and you can give us the right information for 
us to be able to react.
    Thank you both for being here today. Thank you.
    Senator Carper. Senator Capito, thanks so much.
    I have a couple of UC requests and I have a couple of 
questions and we will close it out.
    I would like to ask unanimous consent to submit for the 
record a fact sheet from EPA on the Clean Power Plan that 
states that the agency received 4.3 million public comments 
before finalizing the rule. Is that correct?
    Ms. McCabe. It was four plus million, yes, sir.
    Senator Carper. Did you respond to any of those?
    Ms. McCabe. We responded to every substantive comment, 
Senator.
    Senator Carper. That is a lot. OK, thank you.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Carper. The second unanimous consent request would 
be to submit for the record a variety of other materials that 
include news articles, letters from stakeholders, reports, 
other materials that relate to today's nomination hearing.
    Is there objection? Hearing none, so ordered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
 
    Senator Carper. I am going to come back to the Clean Power 
Plan.
    But before I do that, I love to tell the story of Willie 
Sutton, Willie Sutton who was a famous bank robber back, I 
think, in the Great Depression. He robbed a lot of banks, 
finally got caught. He was dragged before the judge in court, 
and the judge said, Mr. Sutton, why do you rob so many banks? 
He said, that is where the money is.
    When you look at EPA, and the last Administration, two 
Administrations ago and the current Administration, we know we 
have too much carbon in the air, and we have a pretty good idea 
where it is coming from. My understanding is that mobile 
sources are producing about 28 percent of that carbon dioxide.
    I am told that our power plants, power sector, would be 
maybe No. 2 in the pecking order. What would be No. 3?
    Ms. McCabe. As I recall, oil and gas development is--well, 
if you look at the economy, you have mobile sources, power 
generation, and then kind of the rest of our economic activity, 
including commercial buildings and that sort of thing, heating, 
that sort of thing.
    Senator Carper. There has been negotiation going on in 
terms of mobile sources, as you know, between the auto industry 
and a bunch of States, including California, including 
Delaware, to phase down, ratchet down, CO2 emissions, 
greenhouse gas emissions, from our mobile sources. I think 
there are some encouraging developments in this area, as you 
know, and our friends at GM have announced that they are going 
to stop producing gas and diesel-powered vehicles in 2035. 
Ford, I think has set 2030 as a date for stopping the 
development of similar kinds of vehicles. I don't know if that 
was in Europe or the U.S., but it is significant, in any event.
    The Clean Power Plan, I know that there was a stay by the 
Supreme Court several years ago. My understanding, despite that 
stay, the power industry, utility industry writ large, has 
actually met and maybe even exceeded the reductions that were 
called for in the Clean Power Plan. Is that correct?
    Ms. McCabe. That is my understanding, Senator. And it 
doesn't surprise me, it doesn't surprise people. Because the 
EPA rules, as dictated by the Clean Air Act, are supposed to 
focus on where the industry is going, and look at the 
technologies and the innovations and the practice that are 
already out there in the industry and project those forward.
    So we fully expected the power sector to move forward in 
ways that reduce emissions, and indeed they have, even though 
the Clean Power Plan never went into effect.
    Senator Carper. All right. Thank you.
    If I can, Ms. Mallory, a question for you. This is again 
with respect to environmental impact studies under NEPA.
    Are you concerned that the changes, some of the changes and 
revisions, to how we analyze Federal action will undermine our 
Nation's ability to address these and other major challenges? 
Are you concerned that some of the changes that we have talked 
about earlier, to how we analyze Federal actions will undermine 
our Nation's ability to address these and other major 
challenges?
    Ms. Mallory. Thank you, Senator, for that question. That is 
a question that I am very interested, if confirmed, in getting 
to talk to the experts at CEQ, and the NEPA staff, about their 
sense of how the rules are being implemented and the impacts 
that the rules are having right now.
    From the outside looking at what the rules did and the way 
they were structured, I definitely have concerns about them 
being set up in a way that would impact the ability to get the 
information that is necessary for the agencies to make a 
decision.
    Senator Carper. OK, good. Thanks.
    Ms. McCabe, maybe one or two final questions. What lessons, 
if any, can we draw from EPA's experience under the previous 
Administration to improve agency safeguards that protect 
scientific research and the publication of scientific findings?
    Ms. McCabe. Yes, Senator, good science done in an open and 
transparent way with respect for the scientific process and the 
scientists is absolutely essential to good policy. I think that 
many have been concerned at some of the things that happened 
during the prior Administration about the treatment of 
scientists and the use of science in agency decisionmaking 
processes.
    So I think we have already seen the Biden Administration 
make clear that science will be the foundation of policy going 
forward. I know that is the commitment of Secretary Regan. If 
confirmed, it will be mine as well.
    Senator Carper. OK, good. A followup question to that. 
Would you commit to working with this committee in fixing 
scientific integrity at EPA, either by administrative or by 
rule or by legislation, to ensure that abuses of the scientific 
process cannot happen again?
    Ms. McCabe. Senator, if confirmed, I would be more than 
happy to work with this committee and any other members on any 
issues related to making sure that scientific integrity is 
protected.
    Senator Carper. My last question of you, have you ever 
heard the name Thomas Dolby?
    Ms. McCabe. Thomas Dolby? I don't think so.
    Senator Carper. Have you ever heard the term one-hit 
wonder?
    Ms. McCabe. Yes.
    Senator Carper. He was a one-hit wonder.
    Ms. McCabe. OK.
    Senator Carper. Whenever we talk about science, I think of 
him. Because his one hit was, She Blinded Me With Science.
    [Laughter.]
    Senator Carper. We don't want to be blinded by science; we 
want to be guided by science. We want to be guided by science 
as we go forward.
    Are there any more questions? Anybody out there in web land 
want to ask a question? All right.
    Let me just say, a real thanks to our witnesses today for 
joining us. Thank you for your life's work in the past and your 
willingness to sign on for another tour. We will see how things 
go forward. I wish you luck. We hope personally that we are 
able to move your nominations and to work with our Republican 
colleagues in that regard.
    If there are no more questions, I have one more unanimous 
consent request, Senator Capito, that Senators are able to 
submit materials for the hearing record which will be open for 
2 weeks until the close of business on Wednesday, March 17th.
    If there are no more questions for today, members may 
submit followup written questions for the record, we call those 
QFRs, by 4 p.m. on Wednesday, March 10th. The nominees should 
respond to those questions by 10 a.m. on Wednesday, March 17th. 
So we are looking for responses by 10 a.m. on Wednesday, March 
17th.
    Anything else?
    Senator Capito. No. Just thank you both, very much. We 
thank your loyal supporters back there. I know sometimes it is 
harder on them than on you.
    Senator Carper. Again to your spouses, thank you. President 
Biden recently visited Robert Dole, Bob Dole, a great hero, 
great Senator from Kansas, who sat in one of these hearing 
rooms I think in this building many years ago when his wife had 
been nominated, I think by George W. Bush, to be a cabinet 
secretary.
    And her husband introduced her at the hearing to his 
colleagues. Robert Dole, who had a wicked sense of humor, said 
at the hearing, you may recall, he said, ``I regret that I have 
but one wife to serve my country.'' And so to your spouses, 
thank you for your willingness to share your spouses and your 
loved ones. We thank you for being with us today. God bless.
    With that, this hearing is closed.
    [Whereupon, at 12:24 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
